                                                               Issue Date
                                                                        June 15, 2012
                                                               
                                                               Audit Report Number
                                                                        2012-LA-1008




TO:        Maria F. Cremer, Director, San Francisco Office of Community Planning and
            Development, 9AD

           Dane Narode, Associate General Counsel for Program Enforcement, CACC

           //Signed//
FROM:      Tanya E. Schulze, Regional Inspector General for Audit, Los Angeles Region
              IX, 9DGA

SUBJECT: The City of Phoenix, AZ, Did Not Always Comply With Program Requirements
           When Administering Its NSP1 and NSP2 Grants


                                  HIGHLIGHTS

 What We Audited and Why

            We completed a review of the City of Phoenix’s Neighborhood Stabilization
            Program (NSP) grants NSP1 and NSP2. We performed the review because it
            supports the U.S. Department of Housing and Urban Development, Office of
            Inspector General’s (HUD OIG) strategic plan for fiscal years 2010 to 2015 to
            contribute to the oversight objectives of the American Recovery and
            Reinvestment Act of 2009. We selected the City because it received a $60
            million grant as one of 56 NSP2 grantees.

            Our objective was to determine whether the City administered its NSP2 grant in
            accordance with HUD requirements. Specifically, we focused on whether the
            City properly procured goods and services, made program expenditures that were
            eligible, and ensured that consortium members’ grant charges complied with
                 HUD requirements. Additionally, we reviewed the Park Lee Apartments
                 rehabilitation activity for compliance with NSP1 and NSP2 requirements.1

    What We Found


                 The City did not administer its NSP1 and NSP2 grants in accordance with HUD
                 rules and regulations. Specifically, the City’s rehabilitation contract
                 administration was not adequate and did not comply with the NSP2 grant
                 agreement, resulting in an insufficient contract scope of work, inadequate
                 oversight and verification of contract work and expenditures, insufficient
                 maintenance of procurement documentation, inappropriate contract modifications,
                 installation of substandard air conditioning units, and noncompliance with the
                 grant’s Buy American requirements. Additionally, the City inappropriately
                 charged the NSP1 and NSP2 grants for actual losses that could have been covered
                 by insurance, unsupported Park Lee Apartments additional payments, and salaries
                 and wages that did not comply with applicable Federal cost principles.

    What We Recommend


                 We recommend that the Director of HUD’s San Francisco Office of Community
                 Planning and Development require the City to (1) stop incurring costs for NSP-
                 funded multifamily rehabilitation projects until HUD determines whether the City
                 has the capacity to carry out these activities in compliance with HUD rules and
                 regulations; (2) support or repay from non-Federal funds expenditures totaling
                 $6.16 million identified in this report;2 (3) reimburse HUD $140,121 from non-
                 Federal funds for ineligible actual loss charges related to the theft and vandalism
                 of air conditioners; (4) reimburse the City’s NSP2 grant from non-Federal funds
                 $299,901 for substandard equipment, $31,270 for equipment that did not meet the
                 grant’s Buy American provisions, and $60,051 for ineligible actual loss charges
                 related to the theft and vandalism of air conditioners; (5) develop and implement
                 policies and procedures to ensure that HUD-funded construction contracts are
                 managed according to HUD rules and regulations and are adequately monitored;
                 (6) develop written procurement policies and procedures for HUD-funded
                 projects that conform to HUD requirements; (7) develop and implement policies
                 and procedures to ensure that grant charges comply with the applicable Federal
                 cost eligibility requirements.




1
  The audit scope was expanded to include NSP1 activity for only the Park Lee Apartments multifamily
rehabilitation activity.
2
  These expenditures include amounts from findings 1 and 2, recommendations 1B, 1C, 1D, 1E, 2C, and 2D.



                                                      2
           In addition, we recommend that HUD’s Associate General Counsel for Program
           Enforcement determine legal sufficiency and if legally sufficient, pursue civil
           remedies (31 U.S.C. (United States Code) 3801-3812), civil money penalties (24
           CFR (Code of Federal Regulations) 30.35), or both against the City, its principals,
           its contractor, or all of the above for incorrectly certifying to the integrity of the
           data or that due diligence was exercised during the approval of rehabilitation
           payments.

           For each recommendation in the body of the report without a management
           decision, please respond and provide status reports in accordance with HUD
           Handbook 2000.06, REV-4. Please furnish us copies of any correspondence or
           directives issued because of the audit.

Auditee’s Response


           We provided the City a discussion draft report on April 23, 2012, and held an exit
           conference on April 30, 2012. The City provided written comments on May 18,
           2012, and strongly disagreed with our findings and recommendations.

           The complete text of the City’s response, along with our evaluation of that
           response, can be found in appendix B of this report. Attachments to the City’s
           comments were not included in the report because they were too voluminous, but
           are available for review upon request.




                                             3
                             TABLE OF CONTENTS

Background and Objective                                                             5

Results of Audit
        Finding 1: The City Did Not Adequately Administer the Park Lee Apartments    7
                   Multifamily Project Rehabilitation Contract

        Finding 2: The City Charged Its NSP1 and NSP2 Grants for Unallowable Costs   18

Scope and Methodology                                                                22

Internal Controls                                                                    24

Appendixes
   A. Schedule of Questioned Costs and Funds To Be Put to Better Use                 26
   B. Auditee Comments and OIG’s Evaluation                                          27
   C. Criteria                                                                       61
   D. Schedules of Park Lee Apartments Rehabilitation Project NSP1 and NSP2          66
      Activity
   E. Park Lee Apartments Rehabilitation Project Change Order 43                     72




                                             4
                      BACKGROUND AND OBJECTIVES

On July 30, 2008, Title III of Division B of the Housing and Economic Recovery Act of 2008
(HERA) authorized $3.92 billion for the redevelopment of abandoned and foreclosed-upon
homes and residential properties. The U.S. Department of Housing and Urban Development
(HUD) established the grant amounts to the States and units of general local government based
on a funding formula. HUD treats the funds as Community Development Block Grant (CDBG)
funds. This grant program, referred to as the Neighborhood Stabilization Program (NSP),
provides targeted emergency assistance to State and local governments to acquire and redevelop
foreclosed-upon properties that might otherwise become sources of abandonment and blight
within their communities. NSP1 references the grant program authorized under HERA.

On February 17, 2009, Title XII of Division A of the American Recovery and Reinvestment Act
of 2009 authorized additional funding for the provision of emergency assistance for the
redevelopment of abandoned and foreclosed-upon homes as authorized under HERA. HUD
allocated nearly $2 billion in program funds for emergency assistance for the redevelopment of
abandoned and foreclosed homes. NSP2 references the grant program authorized under the
Recovery Act. NSP2 provided 56 grants competitively awarded nationwide to local
governments, nonprofits, consortiums, and one State.

The City of Phoenix received a $39.4 million NSP1 grant on January 15, 2009. The City
planned to use the funds to address the areas of greatest need through single-family and
multifamily activities to include financing mechanisms (home-buyer assistance), acquisition,
rehabilitation, demolition, and redevelopment. Through December 2011, the City had drawn
more than $24 million of the NSP1 grant. The City also received a $60 million NSP2 grant on
January 14, 2010, as the lead member of a 23-member consortium of governmental, nonprofit,
and for-profit entities. The consortium plans a multipronged single-family and multifamily
strategy to arrest decline and restore stability to target area neighborhoods. The strategy includes
the Home Improvement Program (downpayment assistance with housing rehabilitation); the
Move In Ready Program (acquisition, rehabilitation, and resale); subdivision acquisition,
rehabilitation, and resale; redevelopment and reuse of vacant land (subdivisions and
postdemolition); demolition; acquisition and rehabilitation of foreclosed-upon multifamily
properties; and preservation of affordable units created with Federal funding. As of January
2012, the City had drawn more than $23 million of the NSP2 grant. The chart below
demonstrates the City’s planned use of NSP2 funds.




                                                 5
Our overall objective was to determine whether the City properly procured goods and services,
made program expenditures that were eligible, and approved consortium members’ grant charges
in accordance with NSP2 requirements. In addition, because the Park Lee Apartments
rehabilitation project received both NSP1 and NSP2 funds, we expanded our objective to
determine whether the City properly procured goods and services and made program
expenditures that were eligible and adequately supported for the project in accordance with
NSP1 requirements.




                                              6
                                     RESULTS OF AUDIT

Finding 1: The City Did Not Adequately Administer the Park Lee
           Apartments Multifamily Project Rehabilitation Contract
The City’s administration of the rehabilitation contract for the Park Lee Apartments multifamily
project was not adequate, did not comply with the NSP2 grant agreement, and allowed

        An insufficient contract scope of work,

        Inadequate oversight and verification of contract work and expenditures,

        Insufficient maintenance of procurement documentation,

        Inappropriate contract modifications,

        Installation of substandard air conditioning units, and

        Noncompliance with Buy American requirements.

This noncompliance occurred because the City’s policies and procedures were not adequate to
ensure responsible rehabilitation contract management and the City disregarded HUD’s rules and
regulations. As a result, the City allowed project cost overruns of $3.44 million,3 installation of
substandard equipment, and installation of materials specifically prohibited by the NSP2 grant.
In addition, the City expended $2.78 million4 of its NSP1 funds and $3.75 million5 of its NSP2
funds for work that it could not ensure was completed. Further, the City did not have a firm
fixed price contract in place to complete the project.



    The Contract Scope of Work
    Was Insufficient

                 The City prepared the Park Lee Apartments rehabilitation project scope of work
                 intending for it to complete the entire 523-unit, 18-block project. However, the
                 scope of work contained mathematical errors resulting in incorrect item counts.
                 Additionally, the scope of work did not provide for adequate mold abatement and
                 remediation or asbestos abatement and remediation, although the City was aware

3
  The City agreed to additional project costs of $3,436,289 using change orders to modify the contract.
4
  Consists of NSP1 funds: $1,707,554 in unsupported original contract costs + $934,015 in unsupported change
order costs + $140,121 in ineligible change order costs. See appendix D, table 1.
5
  Consists of NSP2 funds: $1,235,004 in unsupported original contract costs + $2,118,814 in unsupported change
order costs + $279,143 in ineligible original contract costs + $112,079 in ineligible change order costs. See
appendix D, table 1.


                                                       7
                      that both would be required. In the bid solicitation, the City included comments
                      regarding damage to specific units, several of which included notations of mold
                      damage. There were also comments such as, “Heavy flood damage and copper
                      theft,” which may lead to mold damage. However, the bid solicitation did not
                      specifically provide for mold remediation. The mold remediation resulted in at
                      least $240,000 in additional rehabilitation costs. Additionally, an asbestos study
                      had been performed before the bid solicitation that indicated the presence of
                      asbestos. However, asbestos remediation was not included in the scope of work.
                      The City acknowledged that the need for asbestos abatement was known before
                      the bid solicitation but was “missed” and not included. As a result, the City
                      issued two change orders totaling more than $340,000 for the asbestos abatement.

                      When the City and the contractor determined that the original contract’s scope of
                      work was not sufficient to complete the entire project, they agreed to allow the
                      contractor to use the contracted project funds, intended for the entire project, to
                      complete only a portion of the project, one block at a time. The contractor used a
                      majority of the budget to complete blocks one and two, with other blocks to be
                      completed as funding allowed. Rather than requiring the contractor to complete
                      the original contract according to its specifications, as specified in 24 CFR (Code
                      of Federal Regulations) 85.36(b)(2) (see appendix C), and determining the
                      specific additional materials needed to complete the project, the City agreed to
                      additional lump-sum amounts. For example, the City contracted for items such as
                      “Electrical $36,911” for an entire block without detailed supporting information
                      that could be used to verify completed work.

                      Additionally, change order 43 for $1.7 million6 provided only a per-apartment-
                      unit lump-sum cost of $5,466. Based on the change order information, it would
                      be impossible for the City to determine what specific work was included, whether
                      that work was duplicated elsewhere in the contract scope, and whether that work
                      had been completed when the contractor requested payment. When asked, two
                      department managers were unable to identify specifically what work was included
                      in the change order. One stated that the change order “is not detailed…it does not
                      tell me how many air conditioners we are buying.” The other manager did not
                      know “if it is materials or what it is.” Without a specific scope of work, the City
                      could not review proposed procurement items for duplicate or unnecessary items
                      as required by 24 CFR 85.36(b)(4) or determine whether the related costs were
                      reasonable, necessary, allocable to the grants, or adequately documented as 2 CFR
                      225(C)(1) requires.

                      As more funding became available, the City used change orders to fund the
                      remaining work, increasing the contract by $3.44 million, or 93 percent of the
                      original contract value of $3.68 million. Several change orders were created as a
                      result of “shifting funds” to the first few blocks and not having enough remaining
                      to complete the other blocks. The “contract” became a function of available


6
    See appendix E.


                                                       8
                   funding rather than being based on fixed, agreed-upon costs for specific work to
                   complete the project.

                   The most recent change order provided to us, number 43 for $1.7 million7 to
                   complete the funding for the project, stated in the scope, “At this time 75 units
                   will not include finishes unless [the contractor] has enough money left over to
                   complete.” The scope also contained the caveat, “This change order breakdown is
                   only a base budget, at the time of block completion and turnover [the contractor]
                   will revise the actual cost per block for the City of Phoenix.” Although the City
                   intended to complete the entire project based on the original contract, the change
                   order caveats indicated that at the time of the change order, the City did not have
                   a firm fixed price established with the contractor for the completion of the project.
                   During an interview, a manager in charge of the project commented that the
                   change order “Looks like an estimate.” Without a firm fixed price, the project
                   was subject to significant potential cost overruns. When the City agreed to the
                   change orders and related caveats, it demonstrated that it did not have the capacity
                   to responsibly administer multifamily rehabilitation projects in accordance with
                   HUD regulations.

    Oversight and Verification
    Were Inadequate

                   The City did not apply sound management practices to the administration of
                   contractor payments. It paid the contractor more than $6.5 million8 in NSP funds
                   without

                             Verification of completed work,

                             Verification that the City appropriately approved the work,

                             Verification that related charges conformed to Federal cost principles, and

                             Knowledge of what specific work the payments represented.

                   The City agreed to pay the contractor progress payments based on operations
                   completed in accordance with the schedule of values. Along with each payment
                   request from the contractor, an attached statement from a City employee certified
                   that the payment request “Appeared to reflect the actual work completed.” The
                   contractor also certified that “To the best of the Contractor's knowledge,
                   information and belief the Work covered by this Application for Payment has
                   been completed in accordance with the Contract Documents.” However, during
                   interviews, both the contractor’s project manager and a City employee stated that

7
    See appendix E.
8
    Appendix D, table 1


                                                       9
                 payment requests’ percentage of completion9 ratios were incorrect; they were
                 calculated based on funding needs rather than on completed work. The employee
                 further indicated that other City employees involved with the project also knew
                 that the ratios were incorrect.

                 Additionally, the City should have questioned some obvious ratio miscalculations.
                 We visited the Park Lee Apartments multifamily project site on October 26, 2011,
                 and on February 16, 2012, and took the pictures below. The site visits confirmed
                 that the percentage of completion calculations and related certifications were not
                 accurate.




                                            Picture 1: Renovated “block 2” building (October 2011)




                   Picture 2: “Block 11” building that needs painting more than seven months after the contractor represented
                      that “paint” was complete and one and a half months after the contractor represented that “Alternate 2
                                             Extirior (sic) Painting” was complete (February 2012)




9
 Percentage of completion method refers to a system under which payments are made for construction work
according to the percentage of completion of the work rather than to the cost incurred, according to 24 CFR 85.3.


                                                            10
  Picture 3: Painting in progress more than seven months after the contractor represented that “paint” was
complete and one and a half months after the contractor represented that “Alternate 2 Extirior (sic) Painting”
                                      was complete (February 2012).




 Picture 4: Irrigation system installation more than 4 months after the contractor represented that irrigation
                                         was complete (October 2011)

During the October 2011 site visit, we identified areas in which it appeared that
renovation had not begun and some buildings that appeared to have been
completed. We also observed workers installing the irrigation system. The
contract item “Irrigation” was clearly not complete, yet the June 2011 payment
requests’ percentage of completion calculation, more than 4 months earlier,
represented it as 100 percent complete. During the February 2012 site visit, we
observed painting in progress and unpainted buildings. Contract items such as
“Paint” and “Alternate 2 Extirior (sic) Painting” were clearly not complete, yet
the June 2011 payment requests’ percentage of completion calculation, more than
4 months earlier, represented “Paint” as 100 percent complete and the December
2011 payment requests’ percentage of completion calculation, more than a month
earlier, represented both items as 100% complete. The City employee who
prepared the payment requests visited the property approximately once per week,
and the department manager who approved the payment requests visited
approximately once per month. City employees who prepared and approved the
payment requests either knew or should have known that the percentage of


                                           11
completion calculations were incorrect. The City paid for work that it did not
verify was complete and that was not adequately documented in accordance with
2 CFR 225(C)(1)(j) requirements. Because the percentage of completion
calculations and related certifications were not accurate, HUD had no assurance
that the work represented as complete and paid for using HUD funds had been
completed.

An employee who approved change orders also prepared the related payment
requests and attested to the requests’ validity, although the employee knew that
the percentage of completion ratios supporting the requests were not correct.
Program regulations at 24 CFR 85.20(b)(3) require that grantees maintain
effective control over and accountability for all grant assets. The City did not
comply with the requirements when its lack of effective control over and
accountability for grant assets allowed the employee to agree to expend funds and
approve payment for those same funds without sufficient evidence of completed
work.

The City’s Housing Department policies require that before payment processing,
employees compare contractor charges to the contract to ensure that the charges
are correct according to the terms of the underlying contract. However, City
employees that managed the project disregarded policies and procedures and did
not compare the draw requests to the contract, relying solely on the information in
the contractor’s draw request. Although the total contracted amounts agreed, the
contractor presented draw requests that were inconsistent with the contract,
thereby making it difficult to determine what specific agreed-upon work was
complete. For example, some work specifications had different values on the
contract than on the draw request, and others that had scheduled values on the
draw request did not appear on the contract (see table below). The payment
requests’ source documentation did not sufficiently support the payments as
required by 24 CFR 85.20(b)(6) and 2 CFR 225(C)(1).

         Comparison of selected contracted values to draw requests
            Work specification     Per contract Per draw request
         01050 General conditions     Not listed         $492,362
         02810 Irrigation system      $256,787           $185,926
         05700 Ornamental metal       Not listed           $14,213
         09910 Paint (painting)       $267,528           $306,737

The City’s poor contract management resulted in 5 charges totaling more than
$357,000 that it did not associate with either the original contract or a change
order. However, the City included the amounts in its overall contract total, which
equaled the original contract plus any change orders. Without association with
some portion of the contract, neither the City nor HUD could determine whether
the charges were reasonable and necessary.




                                12
                 Therefore, HUD had no assurance that $2.78 million10 in NSP1 grant funds and
                 $3.75 million11 in NSP2 grant funds were used solely for their intended purpose
                 as required by 24 CFR 85.20(b)(3), charges conformed to Federal cost principles,
                 and unnecessary or duplicate items were not purchased.


 Procurement Documentation
 Maintained Was Insufficient


                 The City did not maintain adequate procurement documentation. The City’s
                 policies and procedures did not explicitly provide for retention of the unsuccessful
                 bids, allowing the City to destroy competing project bids after it awarded the
                 original rehabilitation contract. Although the City provided its own compilation
                 of the competing bids, the compilation was not sufficient for us to determine the
                 validity of its information or the basis for contractor selection or rejection. For
                 example, there were no contractor signatures or letterhead to support that
                 contractors submitted the bids as presented in the compilation. The procurement
                 documentation was not sufficient to provide for supervisory or audit review or
                 detail the significant history of the procurement as required by 24 CFR
                 85.36(b)(9). Therefore, HUD had no assurance that the City performed the
                 procurement in accordance with HUD regulations.

     Contract Modifications Were
     Inappropriate


                 The City inappropriately approved 25 Park Lee Apartments rehabilitation project
                 contract modifications valued at $3.51 million without performing a cost or price
                 analysis12 as required by 24 CFR 85.36(f)(1). For 17 of the 25 contract
                 modifications valued at $3.44 million,13 the City did not follow the required
                 method of procurement and did not conduct the procurement in a manner to
                 provide for full and open competition as required by 24 CFR 85.36(c)(1). As the
                 project’s rehabilitation progressed, the City and the contractor agreed to contract
                 modifications. Rather than seeking competition for the additional work, the City
                 chose to use the general contractor from the original scope of work to provide all
                 additional services, believing that having too many contractors on site would be
                 inefficient. However, by doing so, the City used the sole source method of
                 procurement for the modifications, contrary to program requirements specified at
                 24 CFR 85.36(d)(4). The sole source procurement method does not provide for
10
   Consists of NSP1 funds: $1,707,554 in unsupported original contract costs + $934,015 in unsupported change
order costs + $140,121 in ineligible change order costs. See appendix D, table 1.
11
   Consists of NSP2 funds: $1,235,004 in unsupported original contract costs + $2,118,814 in unsupported change
order costs + $279,143 in ineligible original contract costs + $112,079 in ineligible change order costs. See
appendix D, table 1.
12
   Appendix D, table 3
13
   Appendix D, table 2


                                                       13
                 competition. Because the work represented in the change orders was not
                 competitively bid, HUD has no assurance that the related charges of $3.05
                 million14 are reasonable.

                 Further, the City employees who managed the project did not appear to
                 understand that Federal procurement regulations are required to be followed at the
                 grantee level. For example, when asked why the City did not seek competitive
                 bids for the asbestos remediation that was not included in the original scope of
                 work, a manager overseeing the project responded, “Because we have a general
                 contractor who goes out to bid.” The City believed that although all change
                 orders were awarded to the original contractor without seeking additional bids, the
                 “Change orders for new elements were competitively bid.”

                 The City’s inadequate procurement policies referred to unique requirements for
                 federally funded procurements that should be overseen by departments but did not
                 explicitly define those requirements. We attribute the deficiencies to the City’s
                 lack of written procurement policies and procedures that complied with HUD
                 rules and regulations. Additionally, the City’s inadequate procedures allowed a
                 sole City employee, who did not have contract modification authority, to agree to
                 $3.44 million in change orders. Although the City’s policies required the
                 signature of the department director or a designated individual authorized by a
                 Delegation of Authority Memo, for all procurements and amendments, the
                 department’s procedures allowed the project manager, who was not authorized by
                 a Delegation of Authority Memo, to approve all contract amendments, regardless
                 of the value. Although other City employees may have been aware of the
                 potential change orders, the department did not require additional signatures.

     Air Conditioning Units Were
     Substandard


                 In its grant application, the City stated to HUD that energy-conscious practices
                 such as 14 SEER15 (seasonal energy efficiency ratio)-rated Energy Star air
                 conditioning units would be implemented in grant-funded multifamily housing
                 rehabilitation. In its rating of NSP2 grant applications,16 HUD awarded points to
                 applicants demonstrating that gut rehabilitation activities would be required to
                 exceed the Energy Star for New Homes standard and that moderate rehabilitation
                 or energy retrofits would purchase only Energy Star products and appliances.
                 However, the City ignored its agreement with HUD and in the Park Lee
                 Apartments rehabilitation scope of work, required only 13 SEER-rated air
                 conditioning units and did not specify that they must be Energy Star certified.
                 This noncompliance resulted in the purchase and installation of substandard 13


14
   Consists of unsupported change orders totaling $2,118.814 NSP2 + $934,015 NSP1. See appendix D, table 1.
15
   A higher SEER rating indicates a more energy-efficient unit.
16
   The grant application is a part of the grant agreement and must be followed.


                                                      14
                   SEER non-Energy Star-certified air conditioning units using $299,90117 in NSP2
                   funds. If HUD had known that the City planned to use 13 SEER-rated air
                   conditioners that were not Energy Star products, it may have affected HUD’s
                   original funding decision.

     The City Did Not Always
     Comply With the NSP2 Grant’s
     Buy American Requirements


                   The City installed 130 gas ranges and 38 vent hoods in the multifamily project
                   that did not comply with the NSP2 grant’s Buy American provisions. As part of
                   the Recovery Act, the NSP2 notice of funding availability stipulated that NSP2
                   grantees could not use grant funds for manufactured goods that were not produced
                   in the United States. Although compliance with the Buy American requirements
                   was part of its written agreement with the City, the contractor did not comply with
                   the requirements when it installed 38 vent hoods. The contractor stated that after
                   inquiring with three vendors, it determined that there were no vent hoods made in
                   America. However, the contractor did not provide evidence to support the claim.
                   The contractor also chose to purchase 130 non-United States-made gas ranges for
                   installation in the apartment complex because it could purchase them less
                   expensively than those made in the United States.




                           Picture 5: Sticker from gas range “made in Mexico” installed at the project (February 2012)

                   The Recovery Act allows for an exemption from the Buy American requirements
                   if there is not a sufficient supply of goods that fit specified requirements. The
                   City did not apply for such an exemption. Therefore, it inappropriately allowed
                   the contractor to purchase and install appliances specifically not allowed by the
                   grant at a cost of $31,270.18

17
     Appendix D, table 4
18
     Appendix D, table 5


                                                             15
     Conclusion

                  The noncompliance and associated program violations discussed above occurred
                  because the City’s policies and procedures were not adequate to ensure
                  compliance with HUD rules and regulations. Additionally, the City disregarded
                  HUD rules and regulations when implementing its NSP1 and NSP2 grants. As a
                  result, it allowed project cost overruns of $3.44 million, payments of more than
                  $6.5 million for work it could not ensure was complete, the installation of
                  substandard equipment, and the installation of materials specifically prohibited by
                  the NSP2 grant and did not have a firm fixed price contract in place to complete
                  the project. Because of the City’s inadequate contract administration of the Park
                  Lee Apartments multifamily rehabilitation project, it did not have the capacity to
                  responsibly manage NSP-funded multifamily rehabilitation projects in accordance
                  with HUD requirements.

     Recommendations

                  We recommend that the Director of HUD’s San Francisco Office of Community
                  Planning and Development require the City to

                  1A.     Stop incurring costs for NSP-funded multifamily rehabilitation projects
                          until HUD determines whether the City and its management have the
                          capacity to carry out these activities in compliance with HUD rules and
                          regulations.

                  1B.     Support that $1,707,554 in NSP119 project funds was used solely for its
                          intended purpose and met the terms, conditions, and specifications of the
                          contract for Park Lee Apartments rehabilitation project charges or repay
                          HUD from non-Federal funds. Supporting documentation should include
                          evidence showing that all costs incurred under the contract met the
                          applicable cost eligibility requirements of 2 CFR Part 225.20

                  1C.     Support that $1,235,004 in project funds21 was used solely for its intended
                          purpose and met the terms, conditions, and specifications of the NSP2
                          grant for Park Lee Apartments rehabilitation project charges or reimburse
                          its NSP2 grant from non-Federal funds. Supporting documentation should
                          include evidence showing that all costs incurred under the contract met the
                          applicable cost eligibility requirements of 2 CFR Part 225.

19
   Total unsupported NSP1 amount is $2,641,569, consisting of $1,707,554 in unsupported original contract costs +
$934,015 in unsupported change order costs (recommendation 1D). See appendix D, table 1.
20
   Compliance with OMB Circular A-87 is required by 24 CFR 570.502(a), compliance with which is required by
the notice of funding availability. OMB Circular A-87 is implemented at 2 CFR Part 225.
21
   Total unsupported NSP2 amount is $3,353,818, consisting of $1,235,004 in unsupported original contract costs +
$2,118,814 in unsupported change order costs (recommendation 1E). See appendix D, table 1.


                                                       16
                 1D.      Support the reasonableness of $934,01522 in unsupported Park Lee
                          Apartments NSP1 rehabilitation charges resulting from contract change
                          orders or repay HUD from non-Federal funds. Supporting documentation
                          should include evidence that the charges are reasonable and comply with
                          program requirements.

                 1E.      Support the reasonableness of $2,118,81423 in unsupported Park Lee
                          Apartments NSP2 rehabilitation charges resulting from contract change
                          orders or repay its NSP2 grant from non-Federal funds. Supporting
                          documentation should include evidence that the charges are reasonable
                          and comply with program requirements.

                 1F.      Reimburse the City’s NSP2 grant $299,901 from non-Federal funds for
                          the use of substandard equipment.

                 1G.      Reimburse the City’s NSP2 grant $31,270 from non-Federal funds for
                          equipment that did not meet the grant’s Buy American provisions.

                 1H.      Develop and implement policies and procedures to ensure that HUD-
                          funded construction projects are managed according to program
                          requirements and are adequately monitored.

                 1I.      Develop written procurement policies and procedures for HUD-funded
                          projects that conform to HUD requirements.

                 In addition, we recommend that HUD’s Associate General Counsel for Program
                 Enforcement

                 1J.      Determine legal sufficiency and if legally sufficient, pursue civil remedies
                          (31 U.S.C. (United States Code) 3801-3812), civil money penalties (24
                          CFR 30.35), or both against the City, its principals, its contractor, or all of
                          the above for incorrectly certifying to the integrity of the data or that due
                          diligence was exercised during the approval of rehabilitation payments.




22
   See footnote 18 above and appendix D, table 1.
23
   Total unsupported amount is $3,353,818, consisting of $1,235,004 in unsupported original contract costs
(recommendation 1C) + $2,118,814 in unsupported change order costs. See appendix D, table 1.


                                                        17
Finding 2: The City Charged Its NSP1 and NSP2 Grants for
           Unallowable Costs
The City charged its NSP1 and NSP2 grants for actual losses that could have been covered by
insurance, unsupported Park Lee Apartments additional payments, and wage-related charges that
did not comply with applicable Federal cost principles. This noncompliance occurred because
the City’s policies and procedures were not adequate to ensure compliance with HUD rules and
regulations and the City generally disregarded HUD’s cost eligibility requirements. As a result,
$140,121 in NSP1 funds and $221,56924 in NSP2 funds were not available for other eligible
expenditures, providing HUD with no assurance that current and future costs would conform to
program requirements.


     The City Charged Its NSP2
     Grant for Unallowable Actual
     Losses


                 The City charged its NSP2 grant for unallowable actual losses that could have
                 been covered by insurance, contrary to Federal cost principles detailed in 2 CFR
                 225, appendix B(22)(c). A multifamily rehabilitation project suffered substantial
                 theft and vandalism of air conditioning units before and during the project’s
                 rehabilitation. After the City took possession, 84 air conditioning units valued at
                 $210,70825 were stolen or damaged between January 2010 and July 2011.
                 However, the City did not file insurance claims for the stolen or vandalized air
                 conditioners. According to City staff, the City did not file the claims because the
                 losses would not have been large enough to meet the insurance deductible of
                 $50,000 per occurrence. The City self-insured up to the deductible. A City
                 employee informed us that “Since it did not meet the deductible, it has to come
                 out of NSP,” illustrating the City’s position that it could not fund the replacements
                 with its own self-insurance funds but could with NSP funds. The City defended
                 the use of NSP funds for some of the units because the City’s original
                 rehabilitation plan called for replacement of the units with NSP funds. Regardless
                 of whether the City’s original rehabilitation plan called for replacement of the
                 units with NSP funds, 2 CFR 225, appendix B(22)(c), specifically disallows
                 actual losses that could have been covered by insurance, including self-insurance,
                 unless certain exemptions apply. In this case, the exemptions did not apply.
                 Therefore, the City charged unallowable costs of $140,12126 to the NSP1 grant
                 and $60,05127 to the NSP2 grant.



24
   These funds include amounts from recommendations 2B, 2C, and 2D.
25
   Eighty-four units at a cost per unit of $2,508.43 totals $210,708.
26
   Appendix D, table 6
27
   Appendix D, table 6


                                                      18
The City Charged Its NSP2
Grant for Unsupported
Additional Park Lee
Apartments Costs

            The City used $146,540 in NSP2 grant funds for payments to the general
            contractor of the Park Lee Apartments rehabilitation project for a job labeled
            “Extras 2nd Job.” The City insisted that the funds were not charged against the
            grant. However, we determined that they were charged to the grant and the funds
            were not reimbursed. We repeatedly asked the City to support the charges.

            Based on the available documentation, the City did not adequately support the
            charges in accordance with 2 CFR 225, appendix A(C)(1), and HUD has no
            assurance the charges were necessary, reasonable, and allocable. Therefore, the
            charges of $146,540 were unsupported costs.


 Wage and Salary Charges Were
 Not Adequately Documented


            The City charged its NSP2 grant for wage and salary costs that were not
            supported as required by Federal cost principles. The documentation provided did
            not adequately support the salary and wage charges, providing HUD with no
            assurance that the costs of $14,978 were allocable to the NSP2 grant.

            2 CFR Part 225, appendix B(8)(h)(4), requires personnel activity reports to
            support wage and salary charges when employees work on multiple activities or
            cost objectives. On the last day of the fiscal year, June 30, 2011, the City
            allocated portions of two staff members’ wage-related charges to its NSP2 grant.
            2 CFR Part 225B(8)(h)(5), requires that personnel activity reports prepared at
            least monthly and signed by the employee support a distribution of salaries or
            wages.

            The charges of $14,978 covered a 5½-month period for one employee and a 10½-
            month period for the second employee. In both cases, the City provided one
            personnel activity report for each employee covering the entire period, beginning
            in August 2010, as support for the charges. Neither employee signed the
            associated personnel activity report. After the City was informed of the potential
            finding, it retroactively prepared additional personnel activity reports for the
            employees covering the same period in an attempt to comply with the
            requirements. However, because one employee was no longer employed by the
            City, the related personnel activity reports were not signed by the employee.
            Additionally, the personnel activity reports were not prepared at least monthly, as
            required by 2 CFR Part 225 Appendix B(8)(h)(5), see appendix C.



                                            19
                 For employees who work solely on a single Federal award, 2 CFR Part 225,
                 appendix B(8)(h)(3), requires that their salary and wage charges be supported by
                 employee certifications that the employees worked solely on that program for the
                 period covered by the certification and be prepared at least semiannually.
                 Although the City knew of this requirement, it disregarded HUD requirements
                 and did not complete certifications for NSP-funded employees until we asked for
                 them. The City completed certifications in February 2012 for the entire grant
                 period, not semiannually as required. Additionally, the first set of individual
                 certifications the City submitted stated that the employee “worked 100% of
                 his/her time on NSP1 and/or NSP2 and/or NSP3” for the period, disregarding
                 requirements that the certifications be specifically attributable to a sole Federal
                 award. After the City was informed of the potential finding indicating that the
                 certifications did not satisfy 2 CFR Part 225 requirements, it retroactively
                 prepared certifications specific to NSP2 for those affected employees. The City
                 did not comply with the requirements until we questioned the related costs.

 Conclusion


                 The City did not follow HUD rules and regulations when it charged its NSP1 and
                 NSP2 grants for actual losses that could have been covered by insurance,
                 unsupported Park Lee Apartments “Extras 2nd Job” payments, and unsupported
                 wage-related charges. Costs that do not comply with 2 CFR Part 225 are
                 ineligible and not allowable grant charges.28 We attribute the unallowable
                 charges to the City’s lack of adequate policies and procedures as well as its
                 disregard for HUD requirements. As a result, $140,121 in NSP1 funds and
                 $221,569 in NSP2 funds were not available for other eligible expenditures,
                 providing HUD with no assurance that current and future costs would conform to
                 program requirements.


     Recommendations


                 We recommend that the Director of HUD’s San Francisco Office of Community
                 Planning and Development require the City to

                 2A.     Repay HUD $140,121 from non-Federal funds for ineligible actual loss
                         charges related to the theft and vandalism of air conditioners.

                 2B.     Reimburse the City’s NSP2 grant $60,051 from non-Federal funds for
                         ineligible actual loss charges related to the theft and vandalism of air
                         conditioners.

28
 The notice of funding availability III(A)(3)(k) requires compliance with OMB Circular A-87, implemented at 2
CFR Part 225.



                                                      20
2C.   Support $146,540 in charges related to the Park Lee Apartments
      rehabilitation project additional payments or reimburse its NSP 2 grant
      from non-Federal funds. Supporting documentation should include
      evidence showing that the charges met the applicable cost eligibility
      requirements of 2 CFR Part 225.

2D.   Support $14,978 in salary and wage charges or reimburse its NSP2 grant
      from non-Federal funds. Supporting documentation should include
      evidence showing that the charges met the applicable cost eligibility
      requirements of 2 CFR Part 225.

2E.   Develop and implement policies and procedures to ensure that grant
      charges comply with applicable Federal cost eligibility requirements.




                               21
                         SCOPE AND METHODOLOGY

Our review of the NSP2 grant activity generally covered the period October 2010 through
January 31, 2012, and was expanded to other periods when necessary. We expanded the scope
of our review to include all of the Park Lee Apartments rehabilitation project’s NSP1 activity.
We performed our onsite work from October 2011 to January 2012 at the City’s offices in
Phoenix, AZ.

   To accomplish our objective, we

              Reviewed applicable HUD rules, regulations, guidance, etc.;

              Reviewed relevant background information related to the City and its NSP1 and
               NSP2 grants;

              Reviewed the City’s applicable policies and procedures for administering the NSP
               grants;

              Interviewed City staff and relevant contractors;

              Discussed potential findings with HUD and City staff;

              Reviewed the City’s recent audited financial statements;

              Reviewed HUD’s recent monitoring report;

              Reviewed the City’s NSP2 application and NSP1 and NSP2 grant agreements;

              Reviewed the City’s records pertaining to rehabilitation, expenditures, and
               disbursements,

              Reviewed the City’s current and proposed NSP2 grant activities to determine their
               eligibility; and

              Visited a multifamily property that was acquired and being rehabilitated using
               program funds (Park Lee Apartments).

We selected a nonstatistical survey sample of two single-family properties’ charges from the
City’s Move In Ready Program to review. We selected the two properties because their
environmental review charges appeared excessive. We also selected a rehabilitation activity
survey sample from four multifamily projects. At the time of our sample selection, the City had
expended more than $11 million in NSP2 funds for four multifamily acquisition and
rehabilitation projects. However, only one project, Park Lee Apartments, had incurred
rehabilitation charges. The other three projects’ costs were acquisition-only charges. Because
we intended to review rehabilitation activity, we selected the Park Lee Apartments rehabilitation


                                                22
activity for review. When we determined that the project’s management was not sufficient to
ensure compliance with HUD regulations, we expanded our review to include the project’s NSP1
rehabilitation activity.

Based on the Disaster Recovery Grant Reporting system drawdown reports, from 13 program
administration draws, we selected a nonstatistical sample of one draw to review. During the
audit, we expanded the sample to include all salary- and wage-related charges as well as charges
based on a central service cost allocation plan.

We used computer-processed data to select the nonstatistical samples and through our testing,
determined that the computer-processed data were adequate for our purposes.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               23
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,

      Reliability of financial reporting, and

      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objective:

                     Policies and procedures intended to ensure adequate contract administration
                      of construction rehabilitation and related activities (finding 1).

                     Policies and procedures intended to ensure compliance with HUD
                      procurement requirements (finding 1).

                     Policies and procedures intended to ensure that grant charges are eligible and
                      adequately supported (finding 2).

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 24
Significant Deficiencies


             Based on our review, we believe that the following items are significant deficiencies:

                   The City did not have adequate controls to reasonably ensure proper NSP1
                    and NSP2 contract administration in compliance with HUD standards
                    (finding 1).

                   The City did not have adequate controls to ensure that its NSP1 and NSP2
                    procurement and rehabilitation activities complied with HUD rules and
                    regulations (finding 1).

                   The City did not have adequate controls to ensure that NSP1 and NSP2 grant
                    charges were eligible and adequately supported and complied with HUD
                    rules and regulations (finding 2).




                                              25
                                    APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE

                   Recommendation             Ineligible 1/    Unsupported
                          number                                        2/
                                  1B                             $1,707,554
                                  1C                              1,235,004
                                  1D                                934,015
                                  1E                              2,118,814
                                  1F               $299,901
                                  1G                 31,270
                                  2A                140,121
                                  2B                 60,051
                                  2C                                146,540
                                  2D                                 14,978
                                Total              $531,343      $6,156,905

1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations. In this case, the ineligible costs included the $299,901 for the use
     of substandard equipment, the $31,270 for equipment that did not meet the NSP2 grant’s
     Buy American provisions, and the $200,172 for actual loss charges related to the theft or
     vandalism of air conditioners.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures. The unsupported costs of $2,942,558 in
     recommendations 1B and 1C are detailed in appendix D, table 1. The unsupported costs
     of $3,052,829 related to recommendations 1D and 1E are also unsupported under
     recommendations 1B and 1C because the costs related to change orders that violated
     HUD’s requirements that grant funds be used solely for their intended purpose also
     violated HUD’s requirement that a cost or price analysis be performed for all
     procurements, including change orders. To avoid double counting, the unsupported
     amounts associated with the lack of a cost or price analysis violation are only included
     under recommendations 1D and 1E of this appendix. See appendix D, table 1, for further
     details. The $146,540 represents unsupported charges related to the Park Lee Apartments
     additional payments. The unsupported costs of $14,978 in recommendation 2D
     represent the unsupported salary- and wage-related costs charged to the NSP2 grant.


                                              26
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                           Auditee Comments

                                                     May 18, 2012

             Ms. Tanya E. Schulze
             Regional Inspector General for Audit
             Office of Inspector General, Los Angeles Region IX
             611 West Sixth Street, Suite 1160
             Los Angeles, California 90017-3101

                      RE:      Office of Inspector General Draft Audit Report No. 2012-LA-100X (City
                               of Phoenix Administration of NSP1 and NSP2 Grants)

             Dear Ms. Schulze:

                      The City of Phoenix, Arizona (the "City") is in receipt of the draft audit report (the
             "Draft Report") and your accompanying letter dated April 23, 2012 prepared by the U.S.
             Department of Housing and Urban Development's ("HUD") Office of Inspector General (the
             "OIG") following its recent audit of the City’s Neighborhood Stabilization Program ("NSP"),
             which eventually focused on the City’s rehabilitation of the Park Lee Apartments ("Park
             Lee"). The City appreciates the opportunity to review the Draft Report and to provide you
             with our perspective on the matters described therein.

                      I.       Highlights

                      The OIG reviewed the City’s administration of NSP grants totaling almost $100
             million in NSP1 and NSP2 funds. What the OIG found were technical mistakes resulting from
             inadequate scoping of a single unique project, the City’s rehabilitation of Park Lee. The
Comment 1    findings presented in the Draft Report are overstated, unsupported, and quite simply assert
             error without regard to context. Some of the findings exhibit either misunderstanding or
             outright distortion of the voluminous information provided for the OIG’s review, most notably
             the findings alleging that oversight and verification were inadequate.

                       There is substantial documentation confirming that every penny of NSP funds
             expended on Park Lee was used to rehabilitate the property in a cost effective manner,
             converting a crime-infested blight on the neighborhood into an attractive affordable housing
             community. The Draft Report contains not a shred of evidence of the "waste, fraud, and
             abuse" that the OIG was established to combat. At most, the OIG identifies instances
             involving a single project (Park Lee) in which the City departed from its regular best practices
             due to unique circumstances. HUD officials, Phoenix Police and neighborhood residents all
             tout the turn around and success of this project. Competitive bidding ensured all work was
             fairly priced and inspections ensured quality work was completed and excellent value was
             received. Despite ample documentation, the OIG has recommended that HUD require the City
             to stop ongoing work on all NSP-funded projects, require the City to repay virtually all funds
             expended on Park Lee, and determine if civil penalties against the City, its principals, and its
             contractor are warranted for "incorrectly certifying to the integrity of the data or that due
             diligence was exercised." Such recommendations are made despite the overwhelming
             documentation provided to the OIG that confirms the City’s proper use of NSP funds.


                                                   27
                     The disproportionality of these recommendations and the OIG’s complete disregard
            for the real world consequences that would result from their implementation belie the claim
Comment 2   that the OIG’s objective is to improve the effectiveness and efficiency of NSP. The City
            strongly disagrees with the recommendations, which unfairly and wrongly characterize
            technical departures from OIG-preferred contract management practices as wasteful or
            inappropriate, without regard to the circumstances surrounding the alleged deficiencies or the
            practical consequences of the proposed solutions. The City requests that the OIG modify its
            findings and recommendations as more specifically described in this response.

                     II.      The Context: Acquisition and Rehabilitation of Park Lee

                      Park Lee is a 1950’s vintage apartment complex comprised of 523 units, in 18
            separate blocks, situated on approximately 31.6 acres and spanning several city blocks.
            Located close to the City’s light rail system, Park Lee is well situated to serve the needs of low
            and moderate income families. Community Services of Arizona, Inc., an Arizona non-profit
            corporation ("CSA"), purchased Park Lee in 2005 and rehabilitated the property using the
            proceeds of a HUD-insured loan. The City acquired Park Lee at HUD’s request, after CSA
            defaulted on its loan in 2008. HUD specifically appealed to the City due to the City's capacity
            in managing and rehabilitating apartment communities and its successful track record of
            managing three HOPE VI grants and millions of dollars of federal funds for multifamily and
            other programs.

                      Understandably reluctant to become a mortgagee in possession, HUD proposed
            during the first quarter of 2009 to sell its note (the "Note") and deed of trust on the recently
            rehabilitated Park Lee to the City. By the time HUD approached the City, Park Lee had
            become a serious blight on the neighborhood. The aging property suffered from high
            operating costs and extremely low occupancy rates, and it had become a magnet for criminal
            activity and vandalism. Additionally, no on-site management existed. Nonetheless, the City
            was willing to assist HUD in a crisis and attempt to work towards turning Park Lee around for
            the benefit of the greater Phoenix community. Both the City and HUD anticipated that NSP1
            funds would be used for the rehabilitation. By April of 2009, the City had engaged outside
            legal counsel and project consultants to provide guidance on the myriad issues raised by
            HUD's proposed transaction. The City authorized the creation of ownership entities and
            drafted and negotiated numerous agreements with HUD, CSA and others involved with Park
            Lee to ensure that the proposed transaction was properly documented and effected—all at
            significant expense to the City.

                     Unfortunately it took HUD the better part of a year to conclude the transaction,
            during which time conditions at Park Lee continued to deteriorate and the deadline for
            obligation of NSP1 funds loomed. In September of 2009 HUD provided the City with HUD’s
            Post-Closing Repair Requirements, in which HUD estimated the cost of required rehabilitation
            at Park Lee to be $5,028,639. HUD did not execute the Loan Sale Agreement by which the
            City purchased HUD’s loan for $5,143,997 of nonfederal funds until December 16, 2009. In
            so doing, HUD recouped part of its investment and extricated itself from the cost and other
            burdens of the blighted property.




                                                 28
                      The City immediately commenced preparation for the rehabilitation of Park Lee. On
            December 17, 2009, CSA executed a deed in lieu of foreclosure, title vested in the new owner
            entity, and acquisition and rehabilitation loan agreements were executed. Between December
            of 2009 and March of 2010 experienced City staff, including a registered engineer, with
            assistance from a very experienced property management company, inspected the property and
            prepared a scope of work. Because the property had so recently been rehabilitated by CSA,
            and based in part upon HUD’s repair estimate, which included no estimate for mechanical
            systems or structural repairs apart from roofing, the City believed that the nature of the work
            was primarily cosmetic and suitable for unit price bidding and contracting. The City
            structured the contract and bid documents accordingly. Before any bids were accepted the
            engineer assigned to the rehabilitation by the City’s Engineering and Architectural Services
            Department reviewed and approved the scope of work and estimated the cost of the Park Lee
            rehabilitation at $4,522,920. Seven bids were received. On August 24, 2010, the contract was
            awarded to Caliente Construction, whose base bid of $3,331,885 was the lowest bid received.

                     Although there were some minor arithmetic errors in the scope of work, those minor
            miscalculations were addressed by the unit pricing structure of the bid package. The most
            significant changes to cost and scope of the work resulted from circumstances that did not
            occur or were not discovered until the City was irrevocably committed to the rehabilitation in
Comment 3   process, such as vandalism and the theft of air conditioning units and copper plumbing. Most
            of the technical deficiencies identified by the OIG occurred as the City labored to assure that
            the work progressed within the time and budgetary constraints despite these circumstances.
            While managing an unexpectedly difficult rehabilitation that required ongoing adjustments to
            budget and scope, the City also spent over $2.5 million in nonfederal funds to carry the
            property and pay operating losses.

                      The City took great pains to assure that value was received for all federal funds
            expended. As the need for additional work became apparent, the City worked with the
            contractor to adjust the scope of work to incorporate unexpected additional work that was
            required and to adjust project schedules so that units and blocks would be completed in a
            manner that allowed the City to begin leasing the rehabilitated units to generate cash flow to
            defray operating expenses. The City had an experienced construction superintendent on site
            almost daily, and City staff met with the contractor as needed to address developing issues.
            Agreements on revisions to the scope of work were incorporated in and reflected on "unit tab"
            sheets that were prepared for each unit, which by course of dealing were incorporated into the
Comment 4   construction contract. Where a unit price for additional items was established in the bid and
            the existing contract, it was applied to determine the price of the additional work. Where work
Comment 5   was required for which no unit price had been established by bid, the price of the additional
            work was based upon at least three bids by subcontractors or suppliers. Before a payment
            request was processed the completed work was inspected with reference to the unit tab sheets
Comment 6   and supporting invoices, to verify that the work represented on the payment request as being
            complete was, in fact, completed. The records reflecting this process were made available for
Comment 7   review by the OIG and apparently disregarded.




                                                 29
                      Although the contracting process may not have been perfect when viewed in
            hindsight, the Draft Report does not acknowledge the circumstances that necessitated the
            contract modifications nor the real-time decisions and challenges the City faced in managing
            costs. Had the City followed the OIG’s recommended processes—halting construction to
            rebid each time the need to change the scope of work became apparent—the rehabilitation cost
            would have grown enormously due to the delays and disruption caused by repeatedly starting
            and stopping the work. Instead, the contractor and City staff worked together to make the very
            best use of available funds in what was legitimately a sole source procurement for increased
            scope items. Cost reasonableness was assured through this process due to the unit pricing
            established by bid and the securing of no less than three competitive bids from subcontractors
Comment 8   for all other items.

                      HUD should commend the City for assuming the revitalization of Park Lee, for the
            City’s investment of millions of nonfederal dollars to acquire a severely blighted property with
            significant unknown defects that otherwise could have cost HUD millions of dollars, for
            bearing the operating losses and the other burdens of rehabilitating the property, for helping
            the federal government to deploy funds intended to preserve neighborhoods impacted by
            foreclosures and stimulate the economy in a short time frame, and for accomplishing all of this
            amid an ever-changing regulatory environment. Instead, based upon its characterization of the
            City’s efforts as "poor contract management," the OIG leapt to the conclusion that all of the
            City’s expenditures (including the $3.7 million, competitively procured low bid base contract)
            were unreasonable "cost overruns" and recommended that HUD require the City to repay
            $6.18 million in NSP funds, halt all of the City’s NSP-funded projects indefinitely, and
            prosecute the City for arguably using certain forms incorrectly. Such overly aggressive audit
            tactics do not serve HUD or the taxpayers.

            The results of the City’s efforts speak for themselves. 1

                      Before                                        After




            1
                Additional photographs of the City’s renovation work are enclosed as Exhibit A.




                                                    30
                                           Before                                        After




                     III.     The City’s Response to Individual Draft Recommendations

            Recommendation 1A: We recommend that the Director of HUD's San Francisco Office
            of Community Planning and Development require the City to [s]top incurring costs for
            NSP funded multi-family rehabilitation projects until HUD determines whether the City
            and its management have the capacity to carry out these activities in compliance with
            HUD rules and regulations.

                     The City (and its Housing Department specifically, in coordination with other City
            departments) has a long and successful record of providing high quality, HUD-funded housing
            programs in compliance with applicable requirements. The City consistently has been
            awarded funding opportunities based on its capacity to manage federal funds and has
            successfully passed HOPE VI and other federal program audits and monitoring. In fact, the
            City owns approximately 5,500 units of public and affordable housing and manages
            approximately 5,200 housing choice vouchers. The City has successfully developed the five-
            phase Matthew Henson HOPE VI development and the McCarty on Monroe senior
            development and is in the process of developing other projects in the City for low income
            residents. The OIG's suggestion that individual technical deficiencies as set forth in the Draft
            Report (and which the City refutes) should call into question the City's overall capacity to
Comment 9   manage affordable housing is neither merited nor supported. Although there is much anecdotal
            evidence to support the view that HUD finds the City's housing management efforts more than
            adequate (including, for example, the numerous funding opportunities HUD has made
            available to the City and the many successful projects undertaken by the City utilizing federal
            funds), HUD's own statements with respect to Park Lee are most telling. For example, in the
            Loan Sale Agreement drafted by HUD and by which the City purchased the Note from HUD,
            the preamble affirms HUD's belief that the City "has the servicing and monitoring capabilities,
            as well as the expertise and resources to provide long-term affordable housing asset
            management for the portfolio".




                                                    31
                       The NSP program was rolled out very quickly in the wake of the national financial
             crisis. The regulations governing the use of NSP funds followed in a fluid, ever-changing
             regulatory environment. The City made exhaustive efforts—including employee participation
             in legal consultations, training/webinars and frequent HUD consultations—at all stages of the
             Park Lee rehabilitation project in order to ensure compliance with applicable requirements,
             including NSP1 and NSP2 program requirements. While the OIG can now review such efforts
             with the benefit of hindsight, relying upon program requirements that have since become more
Comment 10   formalized, at the time of the various activities in question applicable program requirements
             were in a state of flux. NSP program requirements appeared in numerous formats, including
             federal register notices, notices of funding availability, training materials, HUD-issued policy
             alerts, guidebooks, toolkits and other such mediums as "frequently asked questions" that were
             constantly being updated on HUD's website and all of which were purportedly authoritative.
             Although the City applauds HUD for moving quickly, innovatively and collaboratively to
             provide parameters for the NSP program that would facilitate the economic stimulus Congress
             intended to create through the program, the multitude of formats and rolling nature of
             applicable requirements made complete compliance difficult for recipients receiving multiple
             funding awards.

             As the City demonstrates in the remainder of this response, any technical deficiencies alleged
             by the OIG in the Draft Report are either premised upon the OIG's misunderstanding of the
             basis for the City's activities and decisions with respect to Park Lee or result from the lack of
             early and clear direction from HUD regarding applicable requirements that necessitated the
             City making decisions in real-time based on the best information then available. There is no
             question that the City's overarching goals included meeting the mandates of NSP funding
             generally, taking advantage of HUD preservation and foreclosure opportunities, addressing
             major neighborhood blight, creating housing affordability along light rail corridors and
             meeting obligation and expenditure deadlines. By all accounts, the City's foresight and
             continued efforts with respect to Park Lee have been nothing short of "heroic" in the words of
             one HUD official. For example, Phoenix community members1, industry experts1, legislators1
             and even HUD1 have
             1
               See, e.g., Sadie Jo Smokey, City-Rehabbed Apartments Almost Ready for Move-In, ARIZ.
             REPUBLIC, April 24, 2011, available at
             http://arizonarealestatenewsaccess.blogspot.com/2011/04/city-rehabbed-apartments-almost-
             ready.html (reporting that "Tom Elgin, who lives in the Grandview Neighborhood east of the
             [Park Lee], said he's extremely happy with the [C]ity's effort to clean up the blighted area . . .
             [and that] '[t]he police used to be there a lot . . . [d]rugs, graffiti . . . was a real problem. I'd
             paint over graffiti every weekend. All of that has basically gone away.'").
             1
               See, e.g., NAT'L LAW HOUS. PROJECT, INNOVATIVE DEVELOPMENT STRATEGIES
             FOR VERY LOW-INCOME HOUSING 12-13 (2010), available at
             http://www.nhlp.org/files/NHLP%20NSP% 20Best%20Practices%20Final_0.pdf (profiling the
             Park Lee rehabilitation project as one of the most innovative NSP projects in the country
             among other projects analyzed in its NSP best practices guide).
             1
               See, e.g., Sadie Jo Smokey, Phoenix Buys Park Lee Apartments As Low Income Rentals,
             ARIZ. REPUBLIC, Dec. 26, 2009, available a
             http://www.azcentral.com/news/articles/2009/12/24/20091224Phx-ncparklee1226.html
             (reporting on how Congressman Ed Pastor "lauded the work of the multiple city, state and
             federal departments involved in acquiring the [Park Lee]" and his statements that "'[t]his is
             important not only to the city of Phoenix . . . [t]his was part of the Federal Transit
             Administration's initiative to have affordable housing near light rail [and] [a]ll of these
             residents will be able to take light rail to work, shopping.'"
             1
               See U.S. DEP'T OF HOUS. & URBAN DEV., SPOTLIGHT ON THE HOUSING MARKET IN: PHOENIX-
             MESA-GLENDALE, ARIZONA, May 2011, at 3, available at
             http://portal.hud.gov/hudportal/documents/huddoc?id=PhoenixScorecard.pdf



                                                     32
                      touted the City's initiative and numerous improvements made since the City took
             control of Park Lee. Based on these assessments, the OIG's suggestion that the City is
             incapable of properly managing the remainder of NSP funds earmarked for Park Lee—let
             alone its management of NSP funds for other multifamily rehabilitation projects that have
             nothing but sterling records—strains credulity, and risks harm to the population served by the
             City's housing programs grossly out of proportion to any detriment resulting from any
             technical deficiencies that might be ultimately established.

                       To summarize, the Draft Report simply does not support the view that, under the
             totality of the circumstances, City staff failed to appropriately manage the rehabilitation of
             Park Lee and to properly administer the use of federal funds during that process. To the extent
             that the recommendation is based on the approval of change orders under the unique
             circumstances applicable to Park Lee, the need for and cost reasonableness of the change
             orders was thoroughly established, as explained below. In fact, this unsubstantiated attack on
             the City's capacity and recommended moratorium on NSP funding will likely produce no
             public benefit and simply adds risk and expense to an already cost-burdened project. For
             instance, the City's contractual commitments to contractors and others could be jeopardized by
             a temporary pause in funding that may lead to significant legal liabilities and costs.
             Suspending work may also jeopardize other applicable requirements, like HUD expenditure
             deadlines for NSP funds. From a practical perspective, Park Lee is nearly complete and any
             temporary stoppage in funding is likely to risk full contract completion. In short, a suspension
             in funding is not warranted based on the Draft Report and will only exacerbate existing issues
Comment 11   with respect to the Park Lee rehabilitation project. Therefore, the City requests that
             Recommendation 1A be deleted in its entirety from the Draft Report.

             Recommendations 1B, 1C1, 1D, and 1E: We recommend that the Director of HUD's San
             Francisco Office of Community Planning and Development require the City to: [(i)]
             [s]upport that $1,707,554 in NSP1 project funds was used solely for its intended purpose
             and met the terms, conditions, and specifications of the contract for Park Lee
             Apartments rehabilitation project charges or repay its NSP1 grant from non-Federal
             funds. Supporting documentation should include evidence showing that all costs
             incurred under the contract met the applicable cost eligibility requirements of OMB
             Circular A-87; [(ii)] [s]upport that $1,235,004 in project funds was used solely for its
             intended purpose and met the terms, conditions, and specifications of the NSP2 grant for
             Park Lee Apartments rehabilitation project charges or reimburse its NSP2 grant from
             non-Federal funds. Supporting documentation should include evidence showing that all
             costs incurred under the contract met the applicable cost eligibility requirements of
             OMB Circular A-87; [(iii)] [s]upport the reasonableness of $934,015 in unsupported Park
             Lee Apartments NSP1 rehabilitation charges resulting from contract change orders or
             repay its NSP1 grant from non-Federal funds. Supporting documentation should include
             evidence that that the

             (lauding the City for taking on a project that "had become notorious for crime, vandalism, drug
             activity, and poor maintenance, leading to 20% occupancy and squatting of vacant units").
             1
               The recommendations in the Draft Report were not correctly numbered. These references list
             the letters the City assumes will be assigned in the corrected version of the Draft Report.




                                                   33
                       charges are reasonable and comply with program requirements; [and (iv)]
             [s]upport the reasonableness of $2,118,814 in unsupported Park Lee Apartments NSP2
             rehabilitation charges resulting from contract change orders or repay its NSP2 grant
             from non-Federal funds. Supporting documentation should include evidence showing
             that all costs incurred under the contract met the applicable cost eligibility requirements
             of OMB Circular A-87.

                       These recommendations are grouped because they are duplicative—a general demand
             for substantiation of supporting documentation inappropriately split into multiple
             recommendations—and appear to be based on the OIG's assessment under the captions "The
             Contract Scope of Work Was Insufficient", "Oversight and Verification Were Inadequate",
Comment 12   "Procurement Documentation Maintained Was Insufficient" and "Contract Modifications
             Were Inappropriate" in Finding 1 of the Draft Report. In essence, these sections argue that
             overall rehabilitation costs at Park Lee, including cost increases incurred via contract change
             orders, were excessive and permitted without appropriate oversight. The OIG's focus elevates
             form over substance, ignores the fact that the monies were necessary and were spent on Park
             Lee and, particularly as to the OIG’s suggestion that the City repay funds expended under the
             original scope of work, is both curious and unfounded given the context within which the
             additional costs were incurred and the lack of evidence presented in the Draft Report to
             substantiate that amounts expended were unreasonable. The City expects to complete the
             rehabilitation of all units for a cost of under $20,000 per unit, after taking into account funding
             from all sources including City nonfederal funds, NSP funds, and insurance proceeds. To
             convert a dilapidated "tear down" into a jewel of a property located in the heart of the City
             along the light rail corridor at a per unit rehabilitation cost of under $20,000 is a remarkable
Comment 13   achievement, and patently demonstrates that HUD has received more than appropriate value in
             return for the NSP funds expended.

                       The City agrees that scope and quantity figures were underestimated at the outset of
             the Park Lee rehabilitation project, which necessitated additional work and increased costs.
Comment 14   However, given the circumstances that led to the additional work and the specific actions taken
             by the City to appropriately alter the project's scope as the rehabilitation unfolded, the OIG
             cannot properly conclude that funds were improperly managed or misspent. As detailed in
             Section II of this response, Park Lee was in a gross state of disrepair by the time HUD
             transferred Park Lee to the City. At that time, approximately 80% of the units in Park Lee
             were vacant, had no utility service and were frequented by squatters, all of which exacerbated
             the high levels of crime plaguing Park Lee and the surrounding community. HUD was quite
             familiar with Park Lee's poor condition when it proposed to transfer the Note to the City; in
             fact, the OIG issued an audit report in late 2009 detailing its concerns with Park Lee—even
             providing photographs of the deplorable conditions—and describing how, without finding a
             partner to takeover the fledgling development, "HUD stands to lose millions on the sale of the
             [N]ote."1 The City could not conduct unit walk-throughs until after the Note was transferred.
Comment 3    Its scoping was premised on the mistaken belief that the work required was largely cosmetic,
             and those scoping the work could not observe the problems hidden behind the walls, or the
             defects in
             1
              See OIG Audit Report No. 2009-LA-1019, September 15, 2009, at 1, available at
             www.hudoig.gov/pdf/ AuditReports/AZ/ig0991019.pdf.




                                                    34
                     mechanical systems that only became apparent when utilities were restored and
             systems were able to be tested.

                      When the City was finally able to conduct a walk-through it did so with
             representatives of Dunlap & Magee ("D&M"), a highly respected, City-procured property
             management firm with over thirty years of management experience. D&M assessed 100% of
             Park Lee's units to develop a scope of work. Due to the deteriorating nature of the units,
             coupled with the fact that utility service was neither connected nor safe enough to connect at a
             vast majority of the units, team members were forced to rely on visual inspections. Team
             members also did not know the extent to which vandals had looted copper plumbing and other
             unit components, which triggered water and mold problems, all of which were not visually
             apparent. In this context, it is understandable that the scope of rehabilitation was
             underestimated. Once work commenced, utilities were connected and walls opened up, the
Comment 15   extent of destruction and the true scope of the necessary rehabilitation work came into sharper
             focus.

                       The Draft Report criticizes the City’s bid solicitation because it "did not provide for
             asbestos and mold abatement and remediation" citing as evidence the fact that "the City
             included comments regarding damage to specific units, several of which included notations of
Comment 16   mold damage" and other comments like "Heavy flood damage and copper theft". These
             comments, highlighted in the excerpts enclosed as Exhibit B, evidence the fact that such
             conditions were included in the bid documents to the extent that they were known. The very
             fact that the bid solicitation included these items within the scope of rehabilitation that was
             sent to prospective bidders confirms that mold rehabilitation was within the original scope of
             work. Although more mold than was originally thought to exist was discovered as work on
             Park Lee commenced, to say that the original bid solicitation did not contemplate such work is
             patently false.

                       With respect to asbestos, when the City scoped the work it had in hand excerpts from
             a 2004 asbestos report that had been prepared for CSA, and which indicated that there was
             minimal asbestos present that would not require extensive remediation (primarily asbestos in
             the insulation for hot water tanks and in mastic for tiles that would be encapsulated). Because
             the report was too old under applicable county requirements, a new report was ordered but not
             received until the week before bid submittals were due. An addendum to incorporate the
Comment 17   asbestos remediation in the bid was required by the project manager but was not issued due to
             timing and miscommunication. The City could not rebid the Park Lee rehabilitation work and
             still meet its NSP1 obligation deadline. The City made the choice to proceed with the project,
             and required the contractor to competitively bid the asbestos remediation work to ensure cost
             reasonableness.

                      As the extent of disrepair at Park Lee became more evident, the City was left in the
             unenviable position of attempting to complete a much larger rehabilitation effort within the
             confines of its existing funding and scheduling parameters. Contrary to the OIG's assertion
             that the City "agreed to additional lump sum amounts without detailed supporting information
             that could be used to verify completed work and that the rehabilitation contract became a
             function of available funding rather than being based on fixed, agreed-upon costs for specific
             work to




                                                   35
                      complete the project", the City took great pains to vet and document changes to the
             scope of rehabilitation. During the audit the City made available to the OIG: (i) a bid tab
             summary for the original contract, (ii) supporting documentation for each change order, (iii)
             summaries for each individual block which accounted for all rehabilitated units and common
             areas at Park Lee, (iv) copies of all supporting invoices, and (v) photographs of the work in
Comment 18   progress. Additionally, OIG staff visited Park Lee to personally view work in progress and
             OIG staff was offered the opportunity to view contractor files concerning the rehabilitation
             work. The records previously provided establish that all scope items and costs were
             documented and that inspections ensured that the agreed upon scope of work was properly
             completed.

                       One of the primary change orders challenged by the OIG in the Draft Report as being
             unsupported is change order #43 in the amount of $1,700,000. The Draft Report indicates that
             this change order "provided only a per-apartment-unit lump-sum cost of $5,466 . . . [thus] it
Comment 19   would be impossible for the City to determine what specific work was included, whether that
             work was duplicated elsewhere in the contract scope, and whether that work had been
             completed when the contractor requested payment." The OIG apparently assumes that the
             only information relevant to determination of the scope and performance of the work is the
             naked change order form. However, change order #43 must be viewed in the context of the
             course of dealing of the parties, as described above. Although Change order #43 committed an
             additional $1.7 million in funding to the project, and tentatively allocated that funding by
             spreading it over the remaining blocks and units to be rehabilitated, the parties were aware that
             the existing funding was inadequate to complete the entire rehabilitation of Park Lee.
             Because the City could not commit additional funding to the rehabilitation at that time, and
             given the uncertainties of the rehabilitation process as experienced by the parties, it was
             obvious to all concerned that the additional funding would have to be reallocated to specific
             costs that would be incurred as the contractor proceeded with the work.

                       The parties had established in their course of dealing a process by which, before work
             on a unit commenced, representatives of the City and the contractor and others would review
             the work in detail, determine what work would be done and in what manner, and memorialize
Comment 4    their agreements in the unit tab sheets. The City’s construction superintendent was on site
             almost every day and personally observed and monitored the work in progress. Throughout the
             rehabilitation process, the contractor made extraordinary efforts to reduce costs, for instance
             by cannibalizing parts from equipment, rebuilding and repairing equipment wherever possible.
Comment 20   All work performed was evidenced by subcontractor invoices and both documentation and the
             work itself were reviewed and compared to the unit tab sheets before payment was approved.
             The voluminous documentation underlying this process (a sample of which is enclosed as
Comment 19   Exhibit C) clearly demonstrates specific rehabilitation costs by type of cost and unit block.
             Additionally, the documentation provided by the City to the OIG and enclosed as Exhibit D
             identifies specific work items for change order #43 by unit block. The City has provided
             similar information for other project change orders to substantiate the appropriateness and
             reasonableness of all additional project costs.




                                                   36
                      Because of funding limitations and the magnitude of additional repair costs to
             mechanical systems—which were largely hidden from view until they were discovered during
             the construction process—the City elected to direct the contractor to complete work on a
             block-by-block basis, which involved performing the work originally scoped in those blocks as
             well as performing the necessary repairs to make the units in those blocks habitable (e.g.,
Comment 3    repairing burst water lines, replacing wiring to provide for electricity, etc.). Had it not done
             so, the City could have been left with a property consisting of half-finished, uninhabitable
             units, with no income from tenants, and which would continue to be blight on the
             neighborhood despite the expenditure of funds to rehabilitate Park Lee. Since vacancy of the
             property was a significant contributor to its deteriorated condition, and occupancy is a key to
             successful rehabilitation, neighborhood renewal, and affordable housing objectives, this was a
             prudent course of action that was obviously preferable to the course of action the OIG claims
             should now take place—stop work on Park Lee, spend additional funds to develop a more
Comment 21   accurate scope of work, and rebid Park Lee. Quite simply, the City’s actions were entirely
             consistent with the substantive principles that guide the expenditure of HUD funds.

                       The OIG’s suggestion in the Draft Report that overall Park Lee project costs are
             unreasonable is also unmerited. HUD itself did an analysis in 2009 to determine the scope and
Comment 22   cost of necessary repairs at Park Lee. As shown on the Post-Closing Repair Requirements
             schedule attached to the Loan Sale Agreement that effected the transfer of the Note from HUD
             to the City and which is enclosed as Exhibit E, HUD concluded that over $5 million dollars
             would be required to rehabilitate Park Lee. HUD's estimate did not accurately reflect the scope
             of work that eventually was required and: (i) omitted any estimate for certain items including
             asbestos remediation, drywall repairs, blinds and shades, concrete, masonry, finish carpentry,
             bathroom fixtures, and site utilities, (ii) estimated less than $100,000 for plumbing and hot
             water, heat and ventilation, and air conditioning combined, and (iii) estimated only $33,062 for
             cabinetry. These miscalculations caused HUD’s own cost estimate to be significantly
             understated. Adjusted to include the cost of the additional items that HUD failed to
             contemplate, it is reasonable to assume that the full amount of rehabilitation costs under
             HUD’s own analysis would have amounted to a figure in excess of $6 million. The City’s
             engineering staff estimated the cost of the rehabilitation as originally scoped at $4,522,920.
             These estimates provide substantial evidence of the overall cost reasonableness of the Park Lee
             rehabilitation work.

                       For the foregoing reasons, the City believes that all purchases satisfied firm fixed
             price requirements, that change orders met or improved upon original bid prices for items
Comment 23   covered in the original scope, and that change orders for new elements were bid in accordance
             with federal procurement requirements and were reasonable as to overall cost. Moreover,
             thanks to the City’s management of Park Lee and despite numerous challenges encountered by
             the City, upon completion of the project the City expects to realize a cost of under $29,000 per
             unit (including rehabilitation, property acquisition, fire insurance and related work) in
             connection with Park Lee—an extremely cost-conscious figure given the extent of
Comment 24   rehabilitation necessary. Nonetheless, in an abundance of caution, the City has contracted a
             third party firm, Abacus Project Management, to perform a cost reasonableness analysis of
             Park Lee rehabilitation work (including each change order). As indicated in its draft report
             (excerpts of which are enclosed as




                                                  37
                      Exhibit F), Abacus' review confirms that overall rehabilitation costs were "reasonable
             for the work included," thus further substantiating the appropriateness of the City's activities,
Comment 25   the reasonableness of additional costs and the propriety of documentation maintained with
             respect to Park Lee.

                       The OIG's claim that "the City's inadequate procedures allowed a sole City employee,
             who did not have contract modification authority" to agree to change orders does not take into
             account the integrated and collaborative nature of decision-making with respect to Park Lee.
             The City held frequent status meetings and inspections with participation by a range of
             interested parties including the City's Housing, Legal, Engineering and Architectural Services,
             Neighborhood Services, Planning and Development, Public Works and Street Transportation,
             and Phoenix Police Departments, as well as D&M, contractor and inspector representatives. A
             sampling of the meeting minutes enclosed as Exhibit G evidence the nature and content of
             these meetings in detail. Although it is true that the only signature on the change order itself is
             that of the project manager, the change order was not executed until it had been thoroughly
             vetted by City staff during the project team meetings. The project manager and a supervisor
             both reviewed and signed all pay applications, which tied into the change orders as described
Comment 26   above. In the case of change order #43, which was the culmination of the City’s decision to
             commit $2 million in additional funding to Park Lee, the change order was not executed until
Comment 27   City officials at the highest level had approved the funding. In response to the Draft Report,
             the City has conducted extensive inquiries and reviews of the work performed in the
Comment 28   rehabilitation of Park Lee, and is satisfied that all work performed was necessary and
             appropriate, that the cost of work performed pursuant to change orders was reasonable, and
             that appropriate value was received for all payments made. Based on this review, the
             President of the owner entity has since executed a memorandum documenting and formally
Comment 29   authorizing the project manager’s contract actions. Put simply, there is simply no evidence
             that power to manage the project was vested unilaterally in any one individual in a manner that
             would create an opportunity for mismanagement, or that any particular modification was
             inappropriate, unjustified, wasteful or unauthorized.

                       On page 10 of the Draft Report the OIG claims that "both the contractor’s project
             manager and a City employee stated that payment requests’ percentage of completion ratios
Comment 30   were incorrect; they were calculated based on funding needs rather than on completed work.
             The employee further indicated that other City employees involved with the Park Lee
             rehabilitation project also knew that the ratios were incorrect." This portion of the Draft
             Report mischaracterizes statements and information provided to the OIG. The City believes
             that the OIG has characterized the ratios as "incorrect" based upon the OIG’s understanding of
             how the forms are intended to be used in a fixed price contract. By taking witness statements
             out of context and characterizing them in this fashion, the OIG apparently seeks to establish
             some basis for the recommendation that the City and its contractor be investigated and
             prosecuted for "incorrectly certifying to the integrity of the data or that due diligence was
             exercised during the approval of rehabilitation payments."

             When the particular forms in question are examined in the context of this specific project it is
Comment 30   apparent that characterization of the forms as "incorrectly certifying" information to HUD is
             insupportable. Management of the Park Lee rehabilitation contract was unnecessarily




                                                   38
                          complicated by the use of standardized forms that were prescribed by the City’s
                 Engineering and Architectural Services Department but which were not suited to a unit price
                 contract arrangement. Those forms included the schedule of values and percentage completion
Comment 31       forms. Because the project was bid based on unit pricing, the requirement to create a schedule
                 of values was not straight-forward, and the contractor had to deconstruct its bid and allocate
                 the unit prices to cover items such as general conditions, which were not separately stated in
                 the bid documents.

                          For the same reason, percentage completion forms made little sense in the context of
Comment 32 this project. Consequently, the project manager used these forms to measure and monitor
                 overall progress against the base line of the project budget as allocated in the schedule of
                 values, rather than overall percentage of completion of the work. For example, assume
                 (hypothetically) that the contract specified that 20 toilets would be installed at a unit cost of
                 $200 per toilet. If the contractor billed for $2,000 for toilets, the project manager showed the
                 line item as 50% complete, because 50% of the funds allotted to that line item, on a unit cost
                 basis, were being expended for delivery of 50% of the units in question, even if all concerned
                 knew that more toilets might be required as the project progressed. The percentage completion
                 thus reflected the percentage of the monies allocated for particular line items on the schedule
Comment 33       of values based on the unit price, which was in fact a measure of the percentage of completion
                 given the unit pricing under the contract. Apparently the preparers of the forms described this
                 process, and the OIG drew its own conclusion that the percentage completion ratios were
                 incorrect. However, the OIG’s focus on these forms is inappropriate, as use of the forms was
                 not required by HUD and the information presented in the forms represented the project
                 manager’s attempt to adapt the forms to circumstances for which they were not intended, not
                 an attempt to mislead, defraud, or "incorrectly certify" anything to HUD.

                          The OIG also asserts that, with respect to change orders, the City "did not conduct the
Comment 34 procurement in a manner to provide for full and open competition." On the contrary, the City
                 competitively procured a contractor (a woman-owned small business, no less) through sealed
                 bidding to undertake the rehabilitation work on a unit cost bid. Any additional items required
                 by an increase in the scope of rehabilitation were priced at the cost stated in the contractor's
                 original—and winning—bid. To require that the City re-bid every increase in the number of
                 items required as rehabilitation work unfolded (for example, requiring a re-bid for an
                 additional bathroom fixture for one unit that was found to be deficient months into the
                 rehabilitation) is both unduly burdensome, overly costly given the procured contractor had
                 already provided the lowest bid for such items and inconsistent with other HUD-published
                 guidance.1

                         Additionally, the City ensured that its contractor bid out to a minimum of three
Comment 6        subcontractors all scope changes that related not to increases in the number of items originally
                 contemplated for Park Lee but rather to a whole new work item that was not included in the
                          1
                            See, e.g., U.S. DEP'T OF HOUS. & URBAN DEV., HUD HANDBOOK 7460.8 REV 2, at
                 Section 10.3.C.5 ("When negotiating a modification to any contract (even if the basic contract
                 was awarded competitively through sealed bidding) that changes the scope of work previously
                 authorized and impacts the price or estimated cost, the PHA must use cost analysis to arrive at
                 a reasonable cost. The only exception to this rule is a contract modification based on pricing
                 terms already established in the contract document, e.g., exercising an option to buy additional
                 items at preset prices.") (emphasis added).




                                                       39
                      original procurement. Pursuant to 24 C.F.R. § 85.36(d)(4), sole source procurement
             may be utilized in certain instances of public exigency, provided that a cost analysis is
             undertaken to support such procurement. The failing condition of Park Lee when the City
Comment 35
             took it over from HUD—including the rampant theft and vandalism which threatened
             occupants and the greater Phoenix community—certainly qualifies as a public exigency.
Comment 6    Further, the process of having no less than three subcontractors provide quotes for scope
             changes is fundamentally a form of assessing cost reasonableness in furtherance of the cost
             analysis procedure required under 24 C.F.R. § 85.36(d)(4). For these reasons, the City
             believes its procurement practices were within both the letter and spirit of applicable
             procurement requirements.

                       The Draft Report also chastises the City for "destroy[ing] competing project bids after
             it awarded the original rehabilitation contract." This critique is inappropriate; although the
             City's Engineering and Architectural Department discards portions of competing bids in an
             effort to streamline and manage the intense volume of paper one might expect at an
             organization that houses approximately 30 departments and 15,000 employees, it maintains
             sufficient information about losing bids to permit procurement audits and record the
             significant history of the procurement, as required by HUD. The Draft Report asserts error
             without regard to context. The City is not like other public housing authorities with small
             staffs and an independent focus—the successful operation of an integrated City structure (of
             which the Housing Department is only a small part) demands some balancing of competing
             interests. The City's policies on paper and e-mail reduction, for example, are indicative of
             larger programmatic initiatives that are generally enviable for large governmental
             organizations.

                      More importantly, the OIG conveniently fails to recognize that applicable regulations
             at 24 C.F.R. § 85.36(b)(9) require only that "records sufficient to detail the significant history
Comment 36
             of a procurement" be retained. Neither in the federal regulations nor in available HUD
             guidance materials1 is there any requirement that losing bids be retained. The City provided
             various items to the OIG evidencing the proprietary of its primary contract procurement
             process, including the results of the bid opening, a comprehensive bid tabulation summary and
             an internal analysis which are collectively enclosed as Exhibit H. The City is confident these
             records demonstrate its compliance with applicable requirements.

                       In summary, the commentary in the Draft Report suggests that the OIG's real concern
             about Park Lee was that cost increases (which were a direct result of pre-existing conditions at
             the site that were not disclosed to or discovered by the City until after rehabilitation
             commenced) were unreasonable or inappropriate. However, the City believes that the
             supporting documents previously provided to the OIG and enclosed with this response show
             that all NSP funds were used for their intended purposes and in accordance with applicable
Comment 37   requirements, including cost eligibility requirements. Accordingly, the City requests that
             Recommendations 1B, 1C, 1D, and 1E be deleted in their entirety from the Draft Report.


             1
               See, e.g., CDBG FINANCIAL MANAGEMENT AND PROCUREMENT TRAINER GUIDE at 12-13
             (suggesting that losing bid documentation is not required to be retained).




                                                   40
                     Recommendation 1F: We recommend that the Director of HUD's San Francisco
             Office of Community Planning and Development require the City to [r]eimburse the
             City's NSP2 grant $299,901 from non-Federal funds for the use of substandard
             equipment.

                      The City objects to the OIG’s characterization of the air conditioning units installed at
             Park Lee as "substandard," a loaded term that implies that the units were inadequate.
             Recommendation 1F refers to the OIG's assertion in the Draft Report that the City agreed in its
             HUD grant application to utilize 14 SEER- and Energy Star-rated air conditioning units at
             Park Lee and instead utilized 13 SEER- and non-Energy Star-rated air conditioning units.
             Although the Draft Report characterizes a portion of the air conditioner costs as being NSP2-
             funded through use of a proration formula constructed by the OIG—despite the fact that the
Comment 38   project was initially scoped as an NSP1-funded undertaking and only later incorporated NSP2
             funds—the reality is that the City did not use $299,902 in NSP2 funds to purchase the air
             conditioners in question. In fact, the air conditioning units were pre-purchased to lock in a
             favorable price, and the City used only NSP1 monies for these purchases as evidenced by the
             materials enclosed as Exhibit I. Since the grant application does not prohibit such an
Comment 39
             allocation, and because appropriating funds to one grant or another is the City’s prerogative,
             the OIG has no basis to challenge which grant monies were used to purchase the items in
             question.

                      Even if the City had used NSP2 money to purchase air conditioning units for Park
             Lee, that decision would have been fully justified and the expenditure would have been
             appropriate. The Park Lee rehabilitation did not entail a wholesale replacement of HVAC
             systems. The wiring, piping and compressors in the units were not compatible with 14 SEER
Comment 40   units. Had the City required the contractor to provide 14 SEER units it estimates that the
             additional cost of that requirement alone would have added more than $1.5 million to the
             overall project cost, as it would have required that new holes be drilled in exterior walls, and
             that plumbing and compressor units be changed so as to work with the 14 SEER units. Not
             only would such modifications to the buildings have provided a vector for the introduction of
             pests, water damage and other problems, the additional costs would not have been justified by
             the additional energy savings that might have resulted. Therefore, the City requests that this
             recommendation be deleted in its entirety.

                      Recommendation 1G: We recommend that the Director of HUD's San Francisco
             Office of Community Planning and Development require the City to [r]eimburse the
             City's NSP2 grant $31,270 from non-Federal funds for equipment that did not meet the
             grant's Buy American provisions.

                       This recommendation refers to the OIG's assertion in the Draft Report that the City
             installed 130 gas ranges and 38 vent hoods in the apartment complex that did not comply with
             NSP2 program Buy American requirements. As with other recommendations concerning
Comment 41   scope, the project was originally scoped and bid under the NSP1 program, which did not
             include Buy American requirements. NSP2 funds were not committed to the project until after
             the general contractor’s bid had been accepted.




                                                   41
                      Additionally, HUD guidance material suggests that purchases under $100,000 are
Comment 42   exempt from Buy American requirements. 1 In this instance, the purchases at issue are exempt
             since the aggregate cost for the gas ranges and vent hoods is $31,269. Nonetheless, the City
             recognizes the importance of the policies underlying the Buy American requirements in the
             NSP2 context and is willing to consider applying for a retroactive waiver of those
             requirements to the extent HUD deems necessary. The City expects that the size of the
             purchase in question ($31,269) would support such a waiver, thus rendering this
             recommendation moot.

             Recommendations 1H, 1I and 2H: We recommend that the Director of HUD's San
             Francisco Office of Community Planning and Development require the City to: [(i)]
             [d]evelop and implement policies and procedures to ensure that HUD-funded
             construction projects are managed according to program requirements and are
             adequately monitored; [(ii)] [d]evelop written procurement policies and procedures for
             HUD-funded projects that conform to HUD requirements; [and (iii)] [d]evelop and
             implement policies and procedures to ensure that grant charges comply with applicable
             Federal cost eligibility requirements.

                       As discussed in the City's responses to other recommendations, the City believes that
             it appropriately monitored, procured and otherwise managed the Park Lee rehabilitation in
             accordance with applicable requirements. The City has numerous policies and procedures in
             place, including with respect to procurement, that govern different aspects of the City's
Comment 43   activities in this regard and the City would be happy to provide the OIG and/or HUD with such
             policies and procedures upon request. In an abundance of caution, the City has commenced its
             own internal audit of Park Lee and has created new instructional and procedural memos to
             more thoroughly and specifically instruct staff on compliance with HUD requirements at the
             transactional level. If the OIG has any specific recommendations for content that is lacking in
             City policies and procedures, the City is willing to entertain modifications. As it stands, these
             recommendations are too vague to be actionable. The City therefore requests that these
             recommendations be: (i) at a minimum, consolidated into a single finding since they address
             the same basic allegation; and (ii) tailored to address specific items allegedly lacking. If the
             OIG has identified no such specific items, the City requests that these recommendations be
             deleted altogether.

             Recommendation 1J: [W]e recommend that HUD's Associate General Counsel for
             Program Enforcement [d]etermine [the] legal sufficiency and if legally sufficient, pursue
             civil remedies (31 U.S.C. (United States Code) 3801-3812), civil money penalties (24 CFR
             30.35), or both against the City, its principals, its contractor or all of the above for
             incorrectly certifying to the integrity of the data or that due diligence was exercised
             during the approval of rehabilitation payments.

                      Given HUD's desire to turn over the failing Park Lee project to the City—and the
             City's willingness to take it on despite Park Lee's challenges, the high transaction costs and the
             significant investment of time and money—it is surprising that the OIG
             1
               See, e.g., HUD Notice PIH-2011-12 (HA), at p.7 ("Where the size of a contract . . . is less
             than $100,000 . . . the Buy American requirement is not applicable.").




                                                    42
             would impose additional challenges and costs on Park Lee by conducting a full-scale audit. It
             is shocking that the OIG would make an unsupported allegation that the City acted improperly
             in its authorization of NSP funds made available for the Park Lee rehabilitation and that it
             lacks the capacity to manage projects generally. Although the Draft Report consists of several
             alleged technical deficiencies, overall it appears to stem from one primary issue identified by
             the OIG—additional rehabilitation costs that were incurred due to rehabilitation needs
             identified during the renovation process. The Draft Report suggests—without providing any
             identifiable instances or concrete evidence—that actions by City personnel in managing and
             documenting these costs were intended to deceive HUD. The OIG suggests that claims under
             31 U.S.C. §§ 3801—3812 (the "Act") and related civil money penalties under federal
             regulations be brought against the City, its principals, its contractor or all of them in
Comment 44   connection with Project funding despite providing no credible, specific information that might
             conceivably justify such action. As the OIG is aware, HUD is authorized to impose such
             penalties against a person who "makes, presents, or submits, or causes to be made, presented,
             or submitted, a claim [or a written statement] that the person knows or has reason to know: (i)
             is false, fictitious, or fraudulent; [or] (ii) includes or is supported by a written statement which
             asserts a material fact which is false, fictitious, or fraudulent." 28 C.F.R. § 28.10. Thus, to
             substantiate such an allegation there must be evidence of: (i) a "claim"; (ii) by a person who
             has knowledge or imputed knowledge; and (iii) that the claim is false. In other words, there
             must be knowledge of a falsehood and an intent to deceive. No such knowledge or intent is
             suggested, and no such allegation can be properly made.

                      While the Draft Report alleges various technical issues with respect to certain aspects
             of the City's NSP program compliance, the Draft Report does not indicate precisely what
             information is alleged to have been falsely communicated by the City to HUD. An allegation
             of deceit at this magnitude requires an explicit enumeration of the alleged falsehoods. The
             Draft Report offers little more than vague and unsubstantiated generalizations about the City's
             overall program compliance based on a few instances of alleged non-compliance (which are
             refuted in this response). Such generalizations do not establish a case under the Act.

                        As the Act and federal implementing regulations make clear, a claim under the Act
             must be supported by a showing of actual or imputed knowledge that the statement in question
             was a false one. A legitimate claim therefore must establish that the person offering false
             information: (i) has actual knowledge that a claim or statement is false, fictitious, or
             fraudulent; (ii) acts in deliberate ignorance of the truth or falsity of a claim or statement; or
             (iii) acts in reckless disregard of the truth or falsity of the claim or statement. See 31 U.S.C.
             § 3801(a)(5). Despite this requirement, the Draft Report is devoid of any specific information
             concerning knowledge by a City employee of a false statement made to HUD, let alone
             verifiable evidence of such knowledge. Rather, the Draft Report baldly contends that a claim
             under the Act may lie because of the City's "incorrectly certifying to the integrity of data" or
             that enough "due diligence was exercised during the approval of rehabilitation payments."
             Such allegations of mistake or negligence, even if true, do not establish knowing or reckless
             conduct as required by the Act. In fact, the City’s own investigations of this claim by the OIG
             indicate that staff were doing their best to appropriately represent the status of the
             rehabilitation under the challenging circumstances described above.




                                                     43
                       In addition, the Act and federal implementing regulations also make clear that the Act
             only applies if there is a false "claim," as defined by 31 U.S.C. § 3801(a)(3)(A)—essentially a
             demand by a person for property, services or money. The Draft Report does not identify any
             communication by which the City demanded more in the way of property, services or money
             from HUD. Certainly the City accepted NSP funds to which it was entitled from HUD for use
             in connection with many City initiatives (including rehabilitating Park Lee), but there is no
             factual support in the Draft Report suggesting that the City, its principals or its contractor
             demanded that HUD provide more funding for Park Lee as a result of cost overruns than had
             already been appropriated by HUD to the City. Nor is there any assertion that the City, its
             principals, its contractor or anyone else benefited financially from any of the cost overruns
             identified in the Draft Report, and for good reason—all NSP funds made available by the City
             for Park Lee served Project-related needs at very competitive and reasonable cost.

                      This recommendation fails to meet the threshold legal requirements for such a claim.
             Instead, with no context and relying on nothing more than innuendo, the OIG apparently seeks
             to disparage the City with baseless accusations. For the reasons stated above, the City
             therefore requests that Recommendation 1J be deleted in its entirety from the Draft Report.

             Recommendations 2A and 2B: We recommend that the Director of HUD's San Francisco
             Office of Community Planning and Development require the City to: [(i)] [r]epay HUD
             $140,121 from non-Federal funds for ineligible actual loss charges related to the theft
             and vandalism of air conditioners; [and (ii)] [r]eimburse the City's NSP2 grant $60,051
             from non-Federal funds for ineligible actual loss charges related to the theft and
             vandalism of air conditioners.

                      These recommendations relate to the OIG's impractical position that the City should
             have filed insurance claims with respect to stolen and vandalized air conditioners at Park Lee
             despite the fact that no single occurrence of air conditioning theft or vandalism exceeded the
             deductible on the City's insurance policies. The crime and vandalism at Park Lee existed long
Comment 45
             before the City assumed responsibility from HUD and are well chronicled in Section II of this
             response. Following the purchase of the Note from HUD, the City undertook an inventory of
             Park Lee. It quickly became evident that many air conditioning units had been looted of their
             copper components.

                       While the City promptly engaged a security company, Valley Protective Services,
             thefts and acts of vandalism did not immediately stop. As shown in the security log and
             related insurance policy materials enclosed as Exhibit J, no single incident of theft or damage
             (or even a series of incidents in the same 72-hour period which might be construed as a single
             incident under the policies) exceeded the City's $50,000 per occurrence deductible.
             Additionally, according to the City’s insurance broker, the City’s copper theft deductible is
             very much below deductible limits utilized by the City’s peers. The OIG's suggestion that the
             City should have filed insurance claims it knew were below the deductible is ludicrous. To
             file such claims repeatedly would have been a waste of time and money and likely would have
             led to insurance premium increases that would further burden Park Lee's finances and even
             possibly jeopardizing its insurance coverage without resulting in any payment on the claims.
             Most importantly, given




                                                  44
             the fact that there is little published guidance available on sub-deductible claim filing
             requirements in federally-funded projects, the City reached out to HUD officials on this very
Comment 46   issue. The e-mail correspondence the City received back (and which is included in the Exhibit
             J materials) clearly states that the City was not required to file any claims and that replacement
             costs were eligible expenses. Therefore, the City requests that Recommendations 2A and 2B
             be deleted.

             Recommendation 2C: We recommend that the Director of HUD's San Francisco Office
             of Community Planning and Development require the City to [s]upport $146,540 in
             charges related to the Park Lee Apartments rehabilitation project additional payments
             or reimburse its NSP2 grant from non-Federal funds.

                       The OIG alleges that the City inappropriately utilized $146,540 in NSP2 grant funds
             to pay for unallowable playground costs and actual losses incurred at Park Lee due to a fire
Comment 47   while an insurance claim was pending. The Draft Report refers to this as a job labeled as
             "Extras 2nd Job." The "Extras 2nd Job" was created to document newly added scope
             equivalent to the previously noted costs. Although initially classification errors were made,
             City staff subsequently recognized that this work should have been added to the contract as a
             change order and staff promptly took remedial action as reflected in documentation previously
             provided to the OIG, including documentation showing that fire-related costs were directly
             charged to and paid from nonfederal funds. Despite the fact that the City appropriately
             documented and reimbursed NSP for these charges long before the OIG audited the project,
             the OIG continues to maintain that the charges are unsupported. Given that NSP funds were
             either reimbursed (with respect to unallowable expenses), or were never used in the first place
             such that there is no net impact on overall NSP funds, the City requests that Recommendation
             2C be deleted.

             Recommendations 2D, 2E and 2F: We recommend that the Director of HUD's San
             Francisco Office of Community Planning and Development require the City to: [(i)]
             [r]eimburse the City's NSP2 grant from non-Federal funds for $34,086 in unallowable
             developer fees; [(ii)] [n]ot expend any of the $262,914 in remaining contracted developer
             fee costs; [and (iii)] [s]upport $24,144 in Arizona Labor's Community Service Agency
             charges or reimburse its NSP2 grant from non-Federal funds. Supporting documentation
             should include evidence showing that all costs incurred under the contract met the
             applicable cost eligibility requirements of OMB Circular A-122.

                       As the OIG is aware, the City was the lead member of a consortium on its original
             NSP2 grant application. This consortium included 22 other agencies or organizations. Due to
             the fluidity of the federal requirements and guidance during the programmatic shift from NSP1
             to NSP2, it was not clear what restrictions might be placed on consortium members, including
             whether such members would be required to be treated as "sub recipients" and paid with "time
             and materials" contracts. After the NSP2 grant was awarded to the City and consistent with
             the existing federal requirements that have since materialized, the City submitted signed
             consortium funding agreements with its consortium members. A copy of the April 9, 2010
             submittal letter to HUD accompanying these agreements is enclosed as Exhibit K. As the
             submittal letter shows, at that time the City requested that the consortium be restructured to
             remove the entities at issue—




                                                   45
                       Neighborhood Housing Services of Phoenix, Inc. and Arizona Labor's Community
             Service Agency—from the consortium and instead designate them as non-subrecipient
             development partners that would be eligible to subcontract with the City and, among other
             things, receive developer fees. Additionally, the submittal letter and correspondence from
             HUD on a clarifying Substantial Amendment request attached as Exhibit L further evidence
             that the two entities at issue did not sign (and the City did not submit to HUD) consortium
             funding agreements that are required as a prerequisite to attaining consortium member status
             under applicable program requirements. Thus, in the words of HUD staff, "[t]he Notice says
             consortium members need to sign two agreements (consortium funding agreement in addition
             to the application) therefore [Neighborhood Housing Services of Phoenix, Inc. and Arizona
             Labor's Community Service Agency] were never consortium members."

                      It is clear that the City provided HUD notice as to the restructuring of the consortium
             and that the entities at issue were thus eligible to receive developer fees. HUD has also
Comment 48   recognized this reality, thus Recommendations 2D, 2E and 2F are inappropriate and should be
             removed.

             Recommendation 2G: We recommend that the Director of HUD's San Francisco Office
             of Community Planning and Development require the City to [s]upport $14,798 in salary
             and wage charges or reimburse its NSP2 grant from non-federal funds. Supporting
             documentation should include evidence showing that all costs incurred under the
             contract met the applicable cost eligibility requirements of OMB Circular A-87.

                        This recommendation focuses on alleged technical deficiencies in personnel salary
             and wage charge documentation. Like other OIG recommendations, Recommendation 2G
             fails to recognize the integrated nature of the City and its departments as well as the history of
             Park Lee as both an NSP1 and NSP2-endeavor.

                       At the initiation of the NSP1 grant, staff time was charged directly to the grant
             through SAP cost centers utilized across the relevant City departments. The City's
             Neighborhood Services Department accounting staff allocated those funds to the appropriate
             activities and drew the funds from HUD accordingly. After Park Lee became NSP2-funded,
             staff from both the City's Housing and Neighborhood Services departments began using
             CATS, the City's integrated timekeeping system in SAP, to log time to the appropriate grant
             and activity. This shift may have entailed some switching errors, but ultimately led to specific
             time allocations as required by applicable requirements. Despite providing the OIG with time
             sheets and other supporting documentation evidencing the appropriateness of staff time
             allocations, the OIG appears to have dismissed these materials.

             While the City acknowledges that there may be some slight technical deficiencies concerning
             employee certification materials and activity reports, the City has provided the OIG with
             documentation supporting the relevant charges and this documentation substantially complies
Comment 49   with applicable requirements. The City has prepared, executed, and submitted to the OIG
             additional employee certifications enclosed as Exhibit M and activity reports for the time
             period in question to further support salary and wage charges. Going forward, the City will
             prepare and have staff execute such certifications and activity reports. The City believes this




                                                   46
additional documentation will be more than sufficient to supplement the materials already
provided to the OIG and will make Recommendation 2G moot.

        IV.      Conclusion

         The City appreciates the opportunity to respond to the Draft Report and looks forward
to working with the OIG and HUD to appropriately resolve any Project issues identified at the
conclusion of the audit process and our subsequent discussions. Please feel free to contact us
if you have any questions concerning the content of this response.

                                                              Very truly yours,



                                                              Kim Dorney, Housing Director



                                                              Chris Hallett, Neighborhood
                                                              Services Director


Enclosures

cc:     David Cavazos, City Manager
        Jerome E. Miller, Deputy City Manager
        Gary Verburg, City Attorney
        Lou Kislin, HUD Field Office
        Angela Reviere, HUD Field Office
        Noemi Ghirghi, HUD Field Office
        Jonna Mueller, HUD OIG
        Martin D. Herrera, HUD OIG
        Holly Swoboda, HUD OIG
        Michael H. Syme, Esquire




                                       47
       Index of Exhibits


Exhibit A – Assorted representative photographs depicting condition of Park
Lee before rehabilitation, work in progress, and condition after rehabilitation.

Exhibit B – Excerpts of bid package including notations with respect to flood
damage, mold damage and copper theft.

Exhibit C – Selected documentation evidencing work performed on
representative block.

Exhibit D – Specific work items for change order #43.

Exhibit E – Post-Closing Repair Requirements schedule attached to the Loan
Sale Agreement.

Exhibit F – Excerpts from Abacus draft report regarding cost reasonableness.
Questions and comments are being addressed and responses will be reflected
in final report.

Exhibit G – A sampling of various project meeting minutes.

Exhibit H – Results of the bid opening, a comprehensive bid tabulation
summary and an internal analysis of the bids received.

Exhibit I – Evidence of air conditioner purchases with NSP1 money.

Exhibit J – Security log and related insurance policy materials evidencing
deductible limits; HUD e-mail approving COP actions regarding insurance
claims [irrelevant material redacted for privacy reasons; complete copy of
policies available upon request by HUD or OIG].

Exhibit K – April 9, 2010 submittal letter to HUD re: consortium members.

Exhibit L – E-mail from HUD re: Substantial Amendment request clarifying
consortium members.

Exhibit M – New staff time sheets.




                                  48
                         OIG Evaluation of Auditee Comments

Comment 1   We disagree with the City’s characterization of our audit work, analysis, and
            conclusions. We based the findings on facts established by evidence obtained
            throughout the course of the audit. As stated in the report, the City’s contract
            administration was not adequate and did not maintain adequate supporting
            documentation.

Comment 2   The recommendations presented are fair and appropriate given the nature of the
            OIG’s findings. The recommendations are based on the requirement that the City
            complies with HUD’s rules and regulations, not OIG preferences.

Comment 3   We disagree with the City’s assertions on timing and the scope of work.
            Documents provided by the City, dated near the time of scope development,
            illustrate how the City anticipated significant rehabilitation. For example, the
            initial Park Lee Apartments’ inspection conducted around the time of the
            purchase from HUD by a City of Phoenix Housing Department Deputy Director
            noted:

                  Built in 1955, 53 years old

                  523 apartments, 279 vacant of which 60 have been painted and maintained
                   (all have been trashed)

                  Partial rehab (rehabilitation), kitchens

                  Many problems with plumbing, supply, and waste lines

                  Original electrical system

                  Sewer system problems (roots)

                  Problems with transients, prostitutes, gangs, drugs, vandalism, and graffiti

                  55 air conditioning units stolen since May 2008

                  Total capital expenditures first five years $16,790,040

            Given that the buildings were 53 years old and the original electrical system was
            still in place, the City, who mandates and enforces building codes, should have
            known that significant work would be required to bring the electrical to current
            code. The City also knew, near the time of the property’s purchase and scope of
            work development, that the property experienced ongoing vandalism and the theft
            of air conditioning units. Additionally, another estimate performed by Dunlap
            and Magee in December 2009, near the time of the property purchase, estimated
            overall rehabilitation costs to be over $12 million.



                                             49
Comment 4   The City indicates that the parties to the contract memorialized their agreements
            in the unit tab sheets as provided in exhibit C. However, the unit tab sheets
            provided in exhibit C do not indicate any form of agreement between the parties.
            There are no signatures, initials, or other indicators that both parties agreed to the
            changes.

            Additionally, the examples provided by the City are inconsistent with other
            documents it provided during the audit. The example of a unit tab sheet that the
            City provided is for block one and included changes in item counts for items such
            as a vent hood and blinds. However, no change orders specifically provided for
            additional vent hoods or blinds. The City provided a breakdown of costs for
            change order 43, consisting mostly of lump sum costs, but does not have any
            specific costs attributable to those items for block one. Therefore, we still cannot
            determine where, in writing, the City agreed to purchase the items, whether in the
            original contract or any of the change orders, nor can we determine the related
            costs.

            As evidenced by our findings and as a result of the City’s poor contract
            management, it cannot adequately determine specific purchases or the related
            costs. Therefore, it cannot demonstrate, by source documentation or otherwise,
            the details of its NSP grant spending.

Comment 5   Costs related to change orders that included items whose cost was previously
            determined by bid were already excluded from recommendations 1D and 1E.
            Recommendations 1D and 1E remain in the report unchanged.

Comment 6   We disagree with the City’s assertion that the contractor provided three
            subcontractor bids for all items. The City did not provide documentation
            evidencing that the contractor provided three subcontractor bids for all new scope
            items. Regardless of how many bids the contractor received, the change orders
            reflect goods and services that the City purchased from the contractor; not the
            subcontractor. HUD’s regulations at 24 CFR 85.36 require that the grantee,
            meaning the City, not the contractor, procure goods and services in a manner
            providing full and open competition and using specific methods. The regulations
            also require that a cost analysis be performed for each procurement action,
            including contract modifications. The City did not perform a cost analysis for any
            of the modifications that did not involve items whose costs were previously
            determined by bid.

Comment 7   We reviewed and considered all records made available to the OIG. The City did
            not provide evidence that completed work was inspected to verify its completion
            prior to processing the related payment requests. To the contrary, we interviewed
            City employees who stated that the City does not maintain any documentation
            supporting the completed work calculation.




                                              50
Comment 8     As with any audit, we are tasked with ensuring that HUD rules and regulations are
              followed. Our findings are a direct result of deficiencies identified through the
              comparison of the City’s contract administration practices to the related HUD
              rules and regulations. Based on our conclusions, it was our duty and obligation to
              HUD, and the public, to recommend that the City support the reasonableness of
              the expenditures or reimburse the grant. The photos the City included in its
              response do not support the reasonableness of the costs incurred, nor that contract
              administration requirements were followed; rather, they only depict that
              rehabilitation work was or was not done.

Comment 9     While we understand the difficulties presented in implementing and executing a
              time sensitive program such as NSP, we disagree with the City’s
              mischaracterization of the OIG’s audit findings. We did not question the City’s
              capacity to manage affordable housing. Rather, our audit findings questioned the
              City’s capacity to responsibly manage NSP-funded multifamily rehabilitation
              projects. In this area, the audit identified a number of deficiencies as outlined in
              findings one and two. The City’s other programs were not within our audit scope.

Comment 10 The NSP program adopted many of its rules from the Community Development
           Block Grant program. Many of the rules and regulations that the City was not
           compliant with are not NSP specific and have been in place for CDBG activity for
           many years. Since the City has received CDBG funds for many years, it should
           be familiar with the related rules and regulations. Regardless of how new any
           HUD rule is, the City agreed to abide by all related rules and regulations when it
           accepted the grant awards.

Comment 11 OIG also recognizes the increased risk of executing a program that does not have
           the proper internal controls in place to ensure adherence to HUD rules and
           regulations. The City did not provide material information to change
           recommendation 1A. Therefore, it remains unchanged. The City has known
           about this recommendation for some time now, so it can, and should, be
           addressing any action it needs to take with HUD, so that it can minimize any
           stoppage of work.

Comment 12 Recommendations 1B, 1C, 1D, and 1E are listed individually because the
           amounts were questioned for different reasons and were funded by multiple
           grants.

Comment 13 While we realize that work is being completed on the Park Lee Apartments
           project, we also want to emphasize that the work and related contract/procurement
           process must adhere to HUD rules and regulations. In this area, we have
           determined the City did not meet its obligations. Additionally, in contrast to the
           estimated $20,000 per unit cost presented here, the City presents contradictory
           information that the units will be completed for less than $29,000 later in its
           response. See comment 24.




                                               51
Comment 14 The report’s findings are based on detailed analysis of the documents provided.
           In many cases, we determined that the City was unable to provide sufficient
           documentation to explain contract and cost items. See also Comment 1.

Comment 15 We disagree with the City’s assessment. Mold problems were visually apparent,
           as noted on the contract bid documents.

Comment 16 We agree with the City’s assertion that mold remediation was included, in some
           capacity, in the scope of work. Therefore, we modified the report language to say
           that the scope of work did not provide for adequate mold remediation and
           abatement.

Comment 17 The City admits that an asbestos report was available for use prior to bid
           submission, however, it failed to utilize it because of timing and
           miscommunication. The City had an obligation to adhere to HUD rules and
           regulations, which it did not meet.

Comment 18 We disagree with the City’s assertion that it provided documents to fully support
           changes to the scope of rehabilitation. The City did not provide source
           documentation that demonstrated specific scope items were agreed to at a
           reasonable cost. In addition, some change orders provided did not have any
           supporting documentation29 and we were unable to determine what specific work
           some represented.30 Lastly, documentation provided by the City in an attempt to
           support the Park Lee rehabilitation work was not consistent with other documents
           provided. See comment 19.

Comment 19 The City explains it did not have a set plan for the use of the $1.7 million
           represented by change order 43. However, it inappropriately agreed to purchase
           $1.7 million worth of unknowns from the contractor. During the exit conference,
           City representatives indicated that the $1.7 million had always been planned to be
           used for specific items. However, the City could not tell us if the work was
           agreed to in writing at the time of the change order.

                 The City provided a listing of those items that it claimed was agreed to at the
                 execution of the change order. However, the City’s explanation of the costs
                 behind the $1.7 million is inconsistent and does not correlate with the documents
                 it provided. For example, the City provided bid tab documents it says were
                 created from walkthroughs of individual units by a City employee that were used
                 to scope change order 43. The documents have columns for existing, replace, and
                 original bid for each specific item. The City provided several bid tab documents
                 for units in block 14. The City also provided a document with its response,
                 Exhibit D “Specific work items for change order #43”, purportedly breaking

29
   Change orders 9, 42, and 43 were not accompanied by any supporting documentation. Change orders 10, 12, 16,
17, 18, 19, 20, 21, 25, 29, 31, 40, and 41 did not have adequate supporting documentation.
30
   We could not determine what specific goods and services were purchased or removed from the contract with
change orders 19, 20, 41, 42, and 43.


                                                      52
              down the costs of change order 43, as compiled by the contractor. However, that
              document does not identify any costs specifically related to block 14, even though
              it specifies costs related to other blocks.

              Some of the bid tab documents indicate items the City deems necessary but were
              not included in the original bid. However, those items are not accounted for in
              the breakdown of change order 43 that the City provided. The change order
              clearly allocates the $1.7 million to blocks 6, 8, 9, 10, 11, 12, 13, 14, 15, 16, and
              17. However, the document the City provided as support for the change order
              identifies costs for block 7 that is not included in the change order. It also does
              not identify costs for block 10, block 14, or block 15.

              The documentation that the City provided is inconsistent and does not adequately
              support the charges.

Comment 20 The City did not provide evidence of review of completed work prior to payment
           approval. During the audit, we were told by two separate City employees that no
           documentation supporting a review of completed work exists. Additionally, our
           review of the City’s contract management documentation did not result in any
           evidence that the reviews were completed.

Comment 21 The City and HUD have a very specific set of contract and procurement rules and
           regulations that were attached to the agreement and execution of the NSP. We
           disagree with the City’s continual assertion that the contract and change orders
           were executed based on the circumstances presented. The City had an obligation
           to meet each circumstance with a solution that was within HUD guidelines,
           complete with supporting documents. Again, in this capacity, the City failed and
           did not appropriately execute its NSP.

Comment 22 Our audit and associated findings do not suggest that overall Park Lee project
           costs are unreasonable. Rather, we determined the City did not follow HUD’s
           rules and regulations related to determining cost reasonableness when it amended
           its contract. As a result, HUD has no assurance that the related costs incurred
           were reasonable.

Comment 23 We disagree that all purchases satisfied firm fixed price requirements. The City
           contradicts itself, as it admitted that change order 43 “additional funding would
           have to be reallocated to specific costs that would be incurred as the contractor
           proceeded with the work”. Change order 43 does not represent a firm fixed price
           for specific goods or services nor were change orders for new elements bid in
           accordance with HUD’s procurements requirements. See also comment19.

Comment 24 Again, the City appears to contradict its earlier statement that the units will be
           completed at a cost of less than $20,000, stating here that they could be completed
           for under $29,000. See comment 13.




                                                53
Comment 25 The City did not provide the complete cost reasonableness report. However, the
           report segments that it provided confirm that the contractor did not provide three
           subcontractor bids for each new scope item. Additionally, cost reasonableness
           was not the only issue identified as part of the audit. Of most concern, is the lack
           of supporting documentation that is complete and organized to adequately and
           easily support costs associated with the Park Lee Apartments’ rehabilitation
           project.

Comment 26 The City did not provide documentary evidence of collaborative discussions
           regarding change orders. Exhibit G is a small sample of minutes that only
           indicate the City was present in certain meetings. However, the minutes do not
           show that change orders and appropriate approvals were discussed in a
           collaborative manner by multiple City representatives. In one instance, only one
           City employee was present. Additionally, the minutes appear to be prepared by
           the contractor, using the contractor’s software, rather than documented by the
           City. The City did not demonstrate that the change orders were collaboratively
           discussed and approved during project team meetings.

Comment 27 To clarify, the change order was for $1.7 million not $2 million.

Comment 28 We disagree with the City’s statement that change order 43 had been approved
           only after “City officials at the highest level” had approved the funding. The
           original project funding had been approved prior to the project start by the City
           council. The funding for the change order did not require additional council
           approval because overall, the project was within its originally allocated funding.
           The change order itself was only approved by the sole unauthorized City
           employee as stated in the report.

Comment 29 As stated in the report, we found the change order approval controls inadequate.
           Each of the change orders was approved by the sole City employee who did not
           have City authority to approve them. Even though they were approved without
           proper authority, related contractor payments were made. Any retroactive
           modifications to contract authority is not appropriate and does not change the
           facts stated in the report.

Comment 30 The ratios were characterized as incorrect because they did not represent actual
           work completed or materials stored, i.e. materials purchased and stored but not
           yet used or installed, as the document indicates, as both a contractor and a City
           representative stated, and our direct observations substantiated. The witness
           statements quoted in the report were in context with the form and the related
           discussion. The contract requires that a schedule of values allocated to various
           portions of the work, prepared in such a form and supported by such data to
           substantiate its accuracy shall be used as a basis for reviewing the Contractor’s
           application for payments. The schedule of values was broken out by the original
           contract portion as well as each individual change order. Each part of the contract




                                              54
              in its entirety was represented on the schedule. The forms were used as a basis
              for payments and did not correctly represent the work completed.

              The audit report does not discuss or state in any of the findings the use of the
              terms “investigations” and/or ”prosecution”. It is the OIG's responsibility to
              audit the use of HUD funds and to report its findings to HUD, along with
              proposed recommendations to remedy any deficiencies. That is what has been
              done here, with our recommendations each addressed to HUD. HUD, not OIG,
              would be ultimately responsible for determining if any type of civil
              or administrative action is appropriate based upon, not only the OIG audit report,
              but HUD's independent review of the facts and circumstances. Any conclusions
              drawn by the City regarding investigations or prosecutions are not appropriate and
              are not based on anything that is stated in the audit report.

Comment 31 We disagree with the City’s assertion that the rehabilitation contract was a unit
           price contract rather than a lump sum contract. The project rehabilitation contract
           is for and in consideration of the contract sum. The contract states, “The Owner
           shall pay the Contractor the Contract sum for the contractor’s performance of the
           work. The Contract Sum shall be Three Million Six Hundred Eighty Two
           Thousand One Hundred Fifty Two Dollars and 89/100 ($3,682,152.89), subject to
           additions and deductions as provided in the Contract Documents.” The contract
           is a lump sum contract not a unit price contract.

Comment 32 We take exception to the City’s attempt to minimize the importance of the
           percentage of completion forms. Regardless of whether the Housing Department
           felt that the forms were appropriate, they were the basis for determining payment
           to the contractor. When used for the basis of payment, the forms became a part of
           the control environment. Incorrectly representing the percentage of completion
           increased the risk to the contract, the risk to the NSP program and the use of the
           NSP funds.

Comment 33 The percentage of completion forms used for payment requests represents specific
           attributes for each line item on the schedule of values. The original contract and
           each change order are shown separately. For each item, the related work
           completed from previous applications, the related work completed during the
           period; and the related materials stored, or items already purchased but not used
           yet, are totaled. That total is compared to the contracted value for the item and is
           expressed as a percentage, i.e. percentage of completion. The number is then
           reduced by a retainage, generally an amount to ensure the satisfactory completion
           of the contract, to arrive at an overall total payable to the contractor. This amount
           is then reduced by previous payments to determine the current amount payable.
           Because it expresses each portion of the contract individually, all involved can
           determine what portion of each line item is complete. The City’s hypothetical
           example underscores its lack of responsible contract management. In its example,
           the City fails to realize that only items purchased in the original contract will be
           included in that section of the percentage of completion and that change orders



                                              55
                 should be used to purchase additional items. Using the City’s example, “more
                 toilets (that) might be required as the project progressed” should be purchased
                 using a change order and tracked via that change order. Regardless of how the
                 preparers explained the process to the OIG, the forms represent payment request
                 for specific completed work, as agreed to by contract.

                 The percentage of completion represents exactly that, the percentage that the
                 particular portion of the contract is completed. Whether one prepares it based on
                 number of units, unit cost, or overall costs of the contract, all calculations should
                 be equal. The form represents total work and materials completed and stored to
                 date as a ratio of the contracted value. Contrary to the City’s assertion, OIG’s
                 focus on these forms is entirely appropriate as the form is the basis for the
                 contractor’s pay.

Comment 34 The OIG did not question specific change order items where the price had
           previously been established by the sealed bid used for the original contract
           portion. If we determined the items specified in the change order to have been an
           increase in the units of an item previously competitively bid, OIG did not question
           that item’s reasonableness. However, OIG questioned the change orders for new
           scope items that were not competitively procured. When the City accepted the
           grant funds, it agreed to abide by HUD rules and regulations. Those regulations
           require competitive procurement by the Grantee. The guidance that the City cited
           is based on compliance with 24 CFR 85.36 that we cited in the report. See also
           Comment 6.

Comment 35 The City did not establish that a public exigency existed. Further, HUD
           guidance31 requires that written justification for a non competitive award be
           maintained in the grantees files. The grantee did not provide any such
           justification or documentation for the establishment of a public exigency.

Comment 36 Any entity receiving HUD funding must adhere to the same rules and regulations,
           regardless of their size. Both large and small organizations are treated equally
           when it comes to the application of HUD’s rules on record retention. The OIG
           has requested that the City maintain exactly what the regulations call for,
           sufficient records to detail the significant history of the procurement. The records
           the City provided did not sufficiently support that the bids were submitted as
           presented by the City. In discussions with City representatives, we explained that
           simply having a page or two scanned from the original bid showing original
           contractor signatures, contractor letterhead, or both is all that we recommend. It
           is our determination that the City did not maintain a sufficient audit trail.

Comment 37 We disagree with the City regarding any suggestions made by the audit report.
           Our report is based on the City’s inability to adequately document its execution
           and procurement activities of the Park Lee rehabilitation contract. The City has

31
  NSP & Procurement, Procurement Procedures, June 30, 2010, webinar slides states that, “cost analysis and written
justification must be in files,” for non-competitive awards.


                                                       56
                    not provided evidence that supports the funds mentioned in recommendations 1B
                    and 1C were used solely for their intended purpose and met the terms, conditions,
                    and specifications of the Park Lee Apartments rehabilitation contract.
                    Additionally, the City has not provided evidence to support that costs mentioned
                    in recommendations 1D and 1E were reasonable. Therefore, recommendations
                    1B, 1C, 1D, and 1E remain unchanged.

Comment 38 While the Park Lee project may have initiated as an NSP 1 project, the City
           identified the Park Lee Apartments in its NSP2 application, dated July 13, 2009,
           prior to the City’s compilation of the scope of work in December 2009, as part of
           its multifamily units strategy to be funded by NSP2.

                    By its own admission, the City did not use the schedule of values to monitor
                    percentage of completion of the work.32 The City mentions that the air
                    conditioners were pre-purchased to lock in a favorable rate. However, the
                    contractor made the pre-purchase, not the City. The City paid for the air
                    conditioners when it paid the contractor for the original contract and specific
                    change orders that relate to the air conditioners. We created an allocation to
                    determine the amount of NSP2 funds used to purchase the air conditioners
                    because the City has not been able to identify specifically what funds were used to
                    pay for air conditioning units and cannot tie them to any particular payment
                    request, again, illustrating the inadequacy of the City’s records and document
                    support.

Comment 39 We disagree with the City’s statement that appropriating funds to one grant or the
           other is the City’s prerogative. HUD guidance33 states that different NSP
           allocations can be combined on the same project provided that there is a clear
           delineation of specific expenses being paid by multiple NSP allocations with no
           overlap. The City did not provide any such plan of its use of the NSP allocations.
           In fact, the City moved funding between the grants at will with no set plan in
           place, contrary to HUD guidance.

Comment 40 As stated in the report, the City received points during the competitive grant
           process for stating that it would use 14 SEER units. The agreements are clear;
           any change would require a re-scoring. The City did not inform HUD that it did
           not use the equipment that it contractually agreed to in its grant application. For
           this reason and the reasons outlined in comment 38 above, recommendation 1F
           remains in the report unchanged.

Comment 41 The City’s suggestion that NSP2 requirements do not apply because the project
           was originally scoped under NSP1 is not correct. As stated in Comment 38, the
           City identified the Park Lee Apartments in its NSP2 application, dated July 13,
           2009, prior to the City’s compilation of the scope of work in December 2009, as
           part of its multifamily units strategy to be funded by NSP2. Additionally, the City

32
     Page 13 of the City’s response, first paragraph, second sentence.
33
     HUD published NSP FAQ ID 785.


                                                            57
              included the Buy American provisions in its contract with the general contractor,
              indicating it expected to use NSP2 funding for the rehabilitation.

Comment 42 The HUD guidance noted by the City, PIH Notice 2011-12, does not apply to
           funds administered under the NSP grants. However, CPD Notice 2009-05, with
           similar provisions regarding Buy American exceptions, would apply to the NSP2
           funds. The contract amount in question is $7,118,442, well over the $100,000
           exclusion. Therefore, the City is not exempted from the Buy American
           requirements. If HUD determines that an exception to the Buy American
           requirements can be provided to the City, the exception will need to be posted in
           the Federal Register and to Recovery.gov, per the Office of Management and
           Budget requirements at 2 CFR 176.80. For this reason, and Comment 41 above,
           recommendation 1G remains in the report unchanged.

Comment 43 We recognize the City’s efforts to make staff more aware of compliance issues
           and HUD rules and regulations. However, the City did not provide written
           policies and procedures to ensure that HUD-funded construction projects are
           managed according to program requirements and are adequately monitored,
           procurement policies and procedures that conform to HUD requirements, and
           policies and procedures to ensure grant charges comply with Federal cost
           principles. The recommendations are not combined because they address three
           separate areas; contract administration, procurement, and cost principles. The
           City should have written policies and procedures specific to the NSP program,
           especially covering the areas identified as deficient. Therefore, recommendations
           1H, 1I, and 2H (now 2E) remains in the report unchanged.

Comment 44 We note that the City has made a number of conclusions on its own, not based on
           the audit report. Nowhere in the audit report is there any allegation of fraud or
           deceit. The Inspector General Act of 1978 gives the OIG the authority (and the
           mandate) to conduct and supervise audits and investigations relating to the
           programs and operations of HUD. As such, the OIG has the responsibility to
           recommend corrective action, including administrative and/or civil actions based
           on the facts identified in their audit reports. Any recommendation or referral for
           civil and/or administrative actions are addressed to HUD for review and final
           determination. During the audit process, we also presented our audit conclusions
           to HUD’s legal counsel, and it agreed that the matter warranted further review for
           possible pursuit of civil money penalties. During the audit resolution process,
           HUD will solicit any additional input from the City in making its final
           determination as to what corrective action and/or remedies are warranted and
           appropriate. Based on our analysis and the facts presented in the audit report,
           recommendation 1J remains in the report unchanged.

Comment 45 The City is incorrect in its assessment as the audit report does not take the
           position that the City should have filed insurance claims. The City self-insures up
           to the deductible and its self-insurance fund has a fund balance of over $43
           million. The City’s self-insurance fund is liable for the costs, not the grant. OMB



                                              58
                  guidance at 2 CFR 225 Appendix B(22)(c) that actual losses which could have
                  been covered by a self- insurance program or otherwise are unallowable is clear.

Comment 46 While the City did ask and receive guidance from HUD, the City did not inform
           HUD in its inquiry that it had a self-insurance fund and that its policy is to self-
           insure up to the deductible.34 OMB guidance at 2 CFR 225 Appendix B(22)(c) is
           clear that actual losses which could have been covered by a self-insurance
           program or otherwise are unallowable.

Comment 47 We disagree. As a result of the potential finding, the City provided additional
           information related to the charges. At that time, the City stated that, “The
           separate stand alone AIA’contract’ for lack of a better word, was an attempt by an
           employee to track new NSP eligible Park Lee project scope equivalent to the
           amount of non-NSP allowable scope removed from the contract in change order
           41 ($46,981.00 for NSP unallowable playground/site furnishings) and change
           order 40 ($99,559.00 for fire damage charged directly to non-NSP funds).” The
           City added, “The separate stand alone AIA ‘contract’ is new scope of work that
           should be added to the contract as the next available Change Order.”

                  Change order 40 increased the contract by $99,559 for fire damage demolition
                  and abatement. The change order costs were not paid from the NSP grants.
                  Change order 41 reduced the contract by $46,981 to remove site furnishings that
                  the City deemed ineligible NSP charges. The net effect of change orders 40 and
                  41 was a net contract increase of $52,578. However, the City retroactively
                  amended the contract with change order 47 by $146,540.00 (see the City provided
                  table below detailing its corrective action) to accommodate the payments made
                  for the “Extras 2nd Job”.




                  Because the City amended the contract for items previously paid for, items not
                  substantiated by supporting documentation, and again demonstrates that it views
                  the contract as a mechanism to fund the project rather than a method used to
                  purchase, in defined terms, goods and services, the attempted corrective action
                  further illustrates our concerns with the City’s contract management.

34
   Phoenix municipal code, paragraph 42-7 A states, “Through the trust [fund] the City shall act as a self-insurer for
all liability claims, special risk claims, funded property deductible and claim costs other than those falling within the
coverage provisions of an insurance policy or surety bond.”


                                                           59
              While it removed a portion of the charges from the contract through change order
              41 and paid for change order 40 through a different grant, the City still drew funds
              from the NSP2 grant to pay for the “Extras 2nd Job” that were not accounted for at
              the time of payment in the original contract. The City has not provided evidence
              that the funds were reimbursed to the grant.

              The City also provided a description of the work completed with the two “Extras
              2nd Job” payments as well as subcontractor invoices and other documentation.
              Included in the description was “Site Furnishings” of $46,981.00, the same
              amount that the City said it removed from the contract in change order 41 because
              it determined that the items were not eligible NSP expenditures. If the payments
              actually paid for the site furnishings, this would mean that the contractor was paid
              twice for the items, once from Affordable Housing funds and once from NSP
              funds. The other items and amounts described conflicted with the other
              information the City provided. Subcontractor invoices were dated after the
              change order, invoice amounts did not reconcile with the summary provided by
              the City, and the contractor included bond charges. Since these items were not
              covered by an official contract, we are not sure what the bond charges represent.
              Because of the conflicting information, we were unable to determine what the
              charges actually represented at the time of the payments. The documentation
              provided by the City did not support that the additional charges were adequately
              documented, allocable to the grant, reasonable and necessary, or allowable
              charges.

Comment 48 Although the two entities in question did not sign funding agreements within the
           timeframe allotted to complete the consortium member process, the City
           continued to list them in their publicly issued and HUD approved NSP2 action
           plan and quarterly reports until we brought it to HUD’s attention. HUD has since
           corrected the mislabeling. Therefore, recommendations 2D (as previously
           labeled), 2E, and 2F and their associated finding analysis have been removed
           from the report.

Comment 49 The time sheets that the City provided do not sufficiently support the charges in
           accordance with Federal cost principles. Because the personnel activity reports
           the City submitted were not prepared at least monthly and one employee did not
           sign the related personnel activity reports as required by 2 CFR Part
           225B(8)(h)(5), they do not provide assurance that the related costs were allocable
           to the grant. We did not amend the recommendation.




                                               60
Appendix C

                                           CRITERIA
NSP2 Notice of Funding Availability
   III. Application and Submission Information
        A. Program information.
            3. General Section
                k. Ineligible costs.
                    Recipients may use NSP2 funds for allowable costs related to eligible
                    activities. Allowable costs are described in OMB Circulars A-8735 and A-
                    12236. Eligible activities are described in Appendix 1. All other costs are
                    ineligible and unallowable.

       IV. Application Review Information
           5. Rating Factor 5: Energy efficiency improvement and sustainable development factors
           (10 points)
               Describe how you will incorporate specific energy efficient, environmentally
               friendly or other sustainable or green elements in some or all of your NSP2 activities.
                   b. Green building standards. HUD will award up to 3 points for applications that
                   comply with the required NSP2 rehabilitation standards and also demonstrate
                   that new construction and gut rehabilitation activities will be required to exceed
                   the Energy Star for New Homes standard and that moderate rehabilitation or
                   energy retrofits will purchase only Energy Star products and appliances. If you
                   will require NSP2 homes to achieve an established environmental or energy
                   efficiency standard such as Green Communities or equivalent, you do not need to
                   provide the entire standard in detail, but you must provide HUD enough
                   information to locate and reference the standard.

       VI. Administrative Requirements
           K. Buy American.
               Use of American Iron, Steel, and Manufactured Goods. Recipients may not use
               any funds obligated under this award for the construction, alteration, maintenance,
               or repair of a public building or public work unless all of the iron, steel, and
               manufactured goods used in the project are produced in the United States unless
               HUD waives the application of this provision.

       Appendix 1 – NSP2 Program Requirements for All Recipients
         The Department is using this Appendix to provide grant recipients, grant administrators
         and HUD field staff the program requirements and information about ways in which the
         requirements for NSP2 vary from regular CDBG and NSP1 program rules. Except as
         described in this notice, statutory and regulatory provisions governing the CDBG
         program shall apply to the use of these funds. State requirements include those at 24

35
     Implemented at 2 CFR Part 225.
36
     Implemented at 2 CFR Part 230.


                                                  61
       CFR part 570 subpart I and for CDBG entitlement communities and other NSP2
       recipients, those at 24 CFR part 570 subparts A, C, D, J, K, and O. For the purposes of
       NSP2, all non-governmental recipients shall comply with requirements applicable to
       entitlement communities under CDBG regulations, except nonprofit recipients are subject
       to (1) administrative requirements in 24 CFR 570.502(b) instead of 570.502(a) (see
       section M), (2)

Excerpt from the City's Neighborhood Stabilization Program 2 (NSP2) application:
  “Overall home performance will be a focus of NSP2-funded housing rehabilitation, aimed at
  assessing how improvements to building components can deliver optimal results in terms of a
  healthy environment and lower utility bills. As a part of single- and multi-family housing
  rehabilitation, the following energy conscious practices would be among those implemented
  through NSP2:
       Energy Star appliances, including 14 seer [seasonal energy efficiency rating] air
       conditioning units with appropriate sizing...”

Funding Approval and Grant Agreement for Neighborhood Stabilization Program (NSP2)
Funds (B-09-CN-AZ-0050)
   1. The Notice of Fund Availability for the Neighborhood Stabilization Program 2 under the
   American Recovery and Reinvestment, 2009; the three Notices of Fund Availability for
   Fiscal Year 2009 Neighborhood Stabilization Program 2 under the American Recovery and
   Reinvestment Act of 2009, Correction; the Recovery Act; HERA; the Grantee’s application
   for NSP2 assistance; the HUD regulations at 24 CFR Part 570; and this Funding Approval,
   including any special conditions, constitute part of the Grant Agreement.
   8. This Grant Agreement may be amended only with the prior written approval of HUD.

2 CFR Part 225 Cost Principles for State, Local, and Indian Tribal Governments (OMB
Circular A-87)
   Appendix A To Part 225—General Principles For Determining Allowable Costs
     A. Purpose and Scope
        2. Policy guides.
           a. The application of these principles is based on the fundamental premises that:
              (1) Governmental units are responsible for the efficient and effective
              administration of Federal awards through the application of sound management
              practices.
              (2) Governmental units assume responsibility for administering Federal funds
              in a manner consistent with underlying agreements, program objectives, and
              the terms and conditions of the Federal award.
     C. Basic Guidelines
        1. Factors affecting allowability of costs.
        To be allowable under Federal awards, costs must meet the following general criteria:
           a. Be necessary and reasonable for proper and efficient performance and
           administration of Federal awards.
           b. Be allocable to Federal awards under the provisions of 2 CFR part 225.
           e. Be consistent with policies, regulations, and procedures that apply uniformly to
           both Federal awards and other activities of the governmental unit.



                                               62
          j. Be adequately documented.
  Appendix B To Part 225—Selected Items Of Cost
    8. Compensation for personal services.
       h. Support of salaries and wages. These standards regarding time distribution are in
       addition to the standards for payroll documentation.
          (3) Where employees are expected to work solely on a single Federal award or cost
          objective, charges for their salaries and wages will be supported by periodic
          certifications that the employees worked solely on that program for the period
          covered by the certification. These certifications will be prepared at least semi-
          annually and will be signed by the employee or supervisory official having firsthand
          knowledge of the work performed by the employee.
          (4) Where employees work on multiple activities or cost objectives, a distribution of
          their salaries or wages will be supported by personnel activity reports or equivalent
          documentation which meets the standards in subsection 8.h.(5) of this appendix
          unless a statistical sampling system (see subsection 8.h.(6) of this appendix) or other
          substitute system has been approved by the cognizant Federal agency. Such
          documentary support will be required where employees work on:
              (a) More than one Federal award,
              (b) A Federal award and a non-Federal award,
              (c) An indirect cost activity and a direct cost activity,
              (d) Two or more indirect activities which are allocated using different allocation
              bases, or
              (e) An unallowable activity and a direct or indirect cost activity.
          (5) Personnel activity reports or equivalent documentation must meet the following
          standards:
              (a) They must reflect an after-the-fact distribution of the actual activity of each
              employee,
              (b) They must account for the total activity for which each employee is
              compensated,
              (c) They must be prepared at least monthly and must coincide with one or more
              pay periods, and
              (d) They must be signed by the employee.
    22. Insurance and indemnification.
       c. Actual losses which could have been covered by permissible insurance (through a
       self-insurance program or otherwise) are unallowable, unless expressly provided for in
       the Federal award or as described below.


24 CFR Part 85 Administrative Requirements for Grants and Cooperative Agreements to
State, Local, and Federally Recognized Indian Tribal Governments
   24 CFR 85.3 Definitions
    Percentage of completion method refers to a system under which payments are made for
    construction work according to the percentage of completion of the work, rather than to the
    grantee’s cost incurred.




                                               63
24 CFR 85.20 Standards for Financial Management Systems.
   b. The financial management systems of other grantees and subgrantees must meet the
   following standards:...
       3. Internal control. Effective control and accountability must be maintained for all
       grant and subgrant cash, real and personal property, and other assets. Grantees and
       subgrantees must adequately safeguard all such property and must assure that it is used
       solely for authorized purposes.
       5. Allowable cost. Applicable OMB cost principles, agency program regulations, and
       the terms of grant and subgrant agreements will be followed in determining the
       reasonableness, allowability, and allocability of costs.
       6. Source documentation. Accounting records must be supported by such source
       documentation as cancelled checks, paid bills, payrolls, time and attendance records,
       contract and subgrant award documents, etc.

24 CFR 85.36 Procurement.
    b. Procurement standards.
       1. Grantees and subgrantees will use their own procurement procedures which reflect
       applicable State and local laws and regulations, provided that the procurements conform
       to applicable Federal law and the standards identified in this section.
       2. Grantees and subgrantees will maintain a contract administration system which
       ensures that contractors perform in accordance with the terms, conditions, and
       specifications of their contracts or purchase orders.
       4. Grantee and subgrantee procedures will provide for a review of proposed
       procurements to avoid purchase of unnecessary or duplicative items. Consideration
       should be given to consolidating or breaking out procurements to obtain a more
       economical purchase. Where appropriate, an analysis will be made of lease versus
       purchase alternatives, and any other appropriate analysis to determine the most
       economical approach.
       9. Grantees and subgrantees will maintain records sufficient to detail the significant
       history of a procurement. These records will include, but are not necessarily limited to
       the following: rationale for the method of procurement, selection of contract type,
       contractor selection or rejection, and the basis for the contract price.
   c. Competition.
        1. All procurement transactions will be conducted in a manner providing full and open
        competition consistent with the standards of § 85.36.
   d. Methods of procurement to be followed.
        4. Procurement by noncompetitive proposals is procurement through solicitation of a
        proposal from only one source, or after solicitation of a number of sources, competition
        is determined inadequate.
             (i) Procurement by noncompetitive proposals may be used only when the award of
             a contract is infeasible under small purchase procedures, sealed bids or
             competitive proposals and one of the following circumstances applies:
                 (A) The item is available only from a single source;
                 (B) The public exigency or emergency for the requirement will not permit a
                 delay resulting from competitive solicitation;
                 (C) The awarding agency authorizes noncompetitive proposals; or



                                             64
                  (D) After solicitation of a number of sources, competition is determined
                  inadequate.
              (ii) Cost analysis, i.e., verifying the proposed cost data, the projections of the data,
              and the evaluation of the specific elements of costs and profits, is required.
      f. Contract cost and price.
          1. Grantees and subgrantees must perform a cost or price analysis in connection with
          every procurement action including contract modifications.

24 CFR Part 570 Community Development Block Grants
    Subpart J - Grant Administration
       Sec. 570.501 Responsibility for grant administration.
             (b) The recipient is responsible for ensuring that CDBG funds are used in
             accordance with all program requirements. The use of designated public agencies,
             subrecipients, or contractors does not relieve the recipient of this responsibility.
             The recipient is also responsible for determining the adequacy of performance
             under subrecipient agreements and procurement contracts.

         Sec. 570.502 Applicability of uniform administrative requirements.
             (a) Recipients and subrecipients that are governmental entities (including public
             agencies) shall comply with the requirements and standards of OMB Circular No.
             A-87, “Cost Principles for State, Local, and Indian Tribal Governments”; OMB
             Circular A-128, “Audits of State and Local Governments” (implemented at 24 CFR
             part 44); and with the following sections of 24 CFR part 85 “Uniform
             Administrative Requirements for Grants and Cooperative Agreements to State and
             Local Governments” or the related CDBG provision, as specified in this paragraph:
                     (4) Section 85.20, “Standards for financial management systems,” except
                  paragraph (a);
                     (6) Section 85.22, “Allowable costs”;
                     (12) Section 85.36, “Procurement,” except paragraph (a);
                     (16) Section 85.42, “Retention and access requirements for records,” except
                  that the period shall be four years;
              (b) Subrecipients, except subrecipients that are governmental entities, shall comply
             with the requirements and standards of OMB Circular No. A-122, “Cost Principles
             for Non-profit Organizations,” or OMB Circular No. A-21, “Cost Principles for
             Educational Institutions,” as applicable, and OMB Circular A-133, “Audits of
             Institutions of Higher Education and Other Nonprofit Institutions” (as set forth in
             24 CFR part 45).




                                                 65
   Appendix D

              SCHEDULES OF PARK LEE APARTMENTS
         REHABILITATION PROJECT NSP1 AND NSP2 ACTIVITY

Table 1
             Net unsupported NSP1 and NSP2 funds drawn through February 10, 201237
                                                                                                                  Net
                                                                                                  Net
                                                             Amount             Less:                          questioned
         Contract          Contracted         Grant                                           questioned
                                                              paid to         ineligible                        costs per
        component            value           funded                                            costs per
                                                            contractor         charges                          contract
                                                                                                 grant
                                                                                                               component

                                              NSP1           $1,707,554                 $0     $1,707,554
Original contract           $3,682,153                                                   38
                                                                                                                $2,942,558
                                              NSP2            1,514,147        279,143          1,235,004
                                              NSP1            1,074,136         140,121           934,015
Change orders                 3,436,289
                                              NSP2            2,230,893        112,07939        2,118,814       3,052,829
Total first contract $7,118,442                              $6,526,730        $531,343        $5,995,387       $5,995,387
                 Total NSP1                                  $2,781,690         $140,121       $2,641,569
                 Total NSP2                                  $3,745,040         $391,222       $3,353,818




   37
      Because we determined that the scheduled values for the original contract on the contractor payment requests was
   not comparable to the original contracted values, when determining which grant funded the original contract
   payments, we treated the original contract as a whole rather than line-by-line individual items.
   38
      Total consists of ineligible costs: $252,635 in ineligible costs for substandard air conditioning units + $2,634 in
   ineligible vent hoods + $23,874 in ineligible gas ranges. This amount includes NSP2-funded original contract
   charges from recommendations 1H and 1I. See tables 4 and 5.
   39
      Total consists of ineligible costs: $60,051 in actual loss change order costs for substandard air conditioning units
   + $9,375 in change order 20 costs for substandard air conditioning units + $37,891 in change order 31 costs for
   substandard air conditioning units + $4,762 in change order 43 costs for vent hoods. This amount includes NSP2-
   funded change order charges from recommendations 1H, 1I, and 2B. See tables 4 and 5.


                                                             66
Table 2

 NSP1- and NSP2-funded Park Lee Apartments rehabilitation contract change
   orders procured using an unallowable method (sole source) that did not
                   provide for full and open competition


           Change order number                Change order amount
                      1                                          $318,312
                      2                                           $21,496
                      4                                          $216,025
                      8                                          $147,777
                     10                                           $61,775
                     12                                           $47,728
                     14                                           $54,420
                     16                                           $72,865
                     17                                           $52,026
                     18                                           $80,336
                     19                                           $57,128
                     20                                          $116,216
                     29                                           $73,068
                     31                                          $343,655
                     34                                           $33,326
                     42                                           $47,368
                     43                                        $1,700,000
          Total NSP-funded activity                            $3,443,521




                                      67
Table 3
  Park Lee Apartments NSP1- and NSP2-funded change orders for which no cost or price
                              analysis was performed
                                                       Cost or
                                                                   Unsupported - no cost
                                  Change order          price
    Contract order number                                            or price analysis
                                    amount             analysis
                                                                        performed
                                                      performed
               1                         $318,312         No                    $318,312
               2                             21,496       No                        21,496
               4                           216,025        No                      216,025
               6                          (17,303)     Partially                    76,079
               8                           147,777        No                      147,777
              10                             61,775       No                        61,775
              12                             47,728       No                        47,728
              14                             54,420       No                        54,420
              16                             72,865       No                        72,865
              17                             52,026       No                        52,026
              18                             80,336       No                        80,336
              19                             57,128       No                        57,128
              20                           116,216        No                      116,216
              21                              5,955       No                         5,955
              23                              2,396       No                         2,396
              24                              6,089       No                         6,089
              25                          (13,813)     Partially                    23,296
              27                            (8,708)       No                       (8,708)
              29                             73,068       No                        73,068
              31                           343,655        No                      343,655
              34                             33,326       No                        33,326
              35                              4,437       No                         4,437
              41                          (46,981)        No                     (46,981)
              42                             47,368       No                        47,368
              43                        1,700,000         No                   1,700,000
   Total NSP-funded activity           $3,375,593                             $3,506,084




                                          68
Table 4
     Substandard air conditioning units used in the Park Lee Apartments rehabilitation project
                                                                 Contract component
                                                  Original        Change         Change         Change             Total
                                                  contract        order 19       order 20       order 31
 Contracted values
     Contracted value - whole component          $3,682,153          $57,128      $116,216      $343,655          $4,199,152
     Contracted value - air conditioning
                                                    $739,877         $10,626       $39,473      $343,655          $1,133,631
     units only
     Ratio of contracted air conditioner
     units contracted value to whole             20.0936%          18.6%         33.9652%        100%
     component contracted value
 Allocation of costs based on grant funding
                                                     NSP1 funding
     Amount paid with NSP1 funds                 $2,346,548     $57,128            $87,162      $240,559          $2,731,397
     Less 5% retainage                              117,327       2,856              4,358        12,028            $136,569
     Net contract component paid with            $2,229,221          $54,272       $82,804      $228,531          $2,594,828
     NSP1 funds
     Amount paid specific to air
                                                    $447,931         $10,095       $28,125      $228,531           $714,682
     conditioning units with NSP1 funds40
     Less actual loss (recommendation
                                                             0               0             0      140,121           140,121
     2A)
     Net amount paid with NSP1 funds                $447,931         $10,095       $28,125        $88,410          $574,561
                                                      NSP2 funding
     Amount of paid with NSP2 funds              $1,323,465                $0      $29,054      $103,097          $1,455,616
     Less 5% retainage                                66,173                 0        1,453         5,155            72,781
     Net contract component paid with            $1,257,292                $0      $27,601        $97,942         $1,382,835
     NSP2 funds
    Amount paid specific to air                     $252,635               $0       $9,375        $97,942          $359,952
    conditioning units with NSP2 funds41
    Less actual loss (recommendation
                                                             0               0             0       60,051            60,051
    2B)
     Net amount paid with NSP2 funds                $252,635               $0       $9,375        $37,891          $299,901
 Total paid with NSP1 and NSP2
                                                    $700,566         $10,095       $37,500      $126,301           $874,462
 funds



40
   Net contract component paid with NSP1 funds multiplied by ratio of contracted air conditioner units to whole
component’s contracted value
41
   Net contract component paid with NSP2 funds multiplied by ratio of contracted air conditioner units to whole
component’s contracted value


                                                        69
Table 5
 Vent hoods and gas ranges used in the Park Lee Apartments rehabilitation project that were
                                    not made in America
                                                                                          Gas ranges
                                                        Vent hood costs                                    Total costs
                                                                                            costs
                                          Original         Change         Vent hoods        Original
                                          contract        order 4342        totals          contract
  Price (from original bid)                 $334.21          $334.21          $334.21         $536.05
  Quantity                                         23               15               38            130
  Gross amount paid                            $7,687          $5,013          $12,700         $69,687         $82,387
  Less 5% retainage                               384             251              635           3,484           4,119
  Net amount paid                              $7,303          $4,762          $12,065         $66,203         $78,268

Total amount paid for the
                                          $3,670,012      $1,581,000       $5,251,012      $3,670,012
contract component
                                                   NSP1 funding
  Amount of contract component
                                          $2,346,548                $0                     $2,346,548
  paid with NSP1 funds
                                                                           $2,346,548
  Ratio of NSP1 funds paid to
                                          63.938%           0.00%                           63.938%
  total amount paid
Amount paid with NSP1 funds43                  $4,669          $0               $4,669         $42,329         $46,998
                                                   NSP2 funding
  Amount of contract component
                                          $1,323,465      $1,581,000                       $1,323,465
  paid with NSP2 funds
                                                                           $2,904,465
  Ratio of NSP2 funds paid to
                                          36.062%          100.00%                          36.062%
  total amount paid
Amount paid with NSP2 funds44                  $2,634          $4,762           $7,396         $23,874         $31,270
Total NSP1- and NSP2-funded
                                               $7,303          $4,762          $12,065         $66,203         $78,268
costs




  42
     No change order specifically mentioned vent hoods. Because we could not determine a specific change order that
  would account for the additional 15 vent hoods, we applied the costs to change order 43, which specified only lump-
  sum amounts for each apartment unit.
  43
     Ratio of NSP1 funds paid to total amount paid multiplied by net amount paid
  44
     Ratio of NSP2 funds paid to total amount paid multiplied by net amount paid


                                                          70
       Table 6

           Actual loss due to air conditioning unit-related theft or vandalism at the Park
                      Lee Apartments rehabilitation project (change order 31)
                                                     Total costs
            Air conditioner unit price (from original bid)                        $2,508.43
            Quantity                                                                     84
            Total cost                                                             $210,708

            Total change order value                                               $343,655
            Gross amount paid on change order (before retention)                   $343,655
                           Allocation of costs based on grant funding
                                                   NSP1 funding
            Amount of change order costs paid with NSP1 funds                      $240,559
            Ratio of NSP1 funds paid to total amount paid                           70.00%

            Gross amount paid with NSP1 funds45                                    $147,496
            Less 5% retainage                                                         7,375
            Net amount paid with NSP1 funds                                        $140,121
                                        NSP2 funding
            Amount of change order costs paid with NSP2 funds                      $103,096
            Ratio of NSP2 funds paid to total amount paid                           30.00%


            Gross amount paid with NSP2 funds46                                     $63,212
            Less 5% retainage                                                         3,161
           Net amount paid with NSP2 funds                                          $60,051
         Total paid with NSP1 and NSP2 funds                                       $200,172




45
     Total cost multiplied by ratio of NSP1 funds paid to total amount paid
46
     Total cost multiplied by ratio of NSP2 funds paid to total amount paid


                                                           71
Appendix E

        PARK LEE APARTMENTS REHABILITATION PROJECT
                      CHANGE ORDER 43

     Project: Park Lee Apartments Renovations47
     Request description: block 8-17 scope of work to complete project
     Request due to: existing conditions/owner changes
     Blocks 1-17 summary              Quantity          Type           Rate           Subcontract              Subtotal
               Block 6                     21    LS                     5,466.23        $ 114,790.83        $ 114,790.83
               Block 8                     33    LS                     5,466.23          180,385.59           180,385.59
               Block 9                     28    LS                     5,466.23          153,054.44           153,054.44
               Block 10                    33    LS                     5,466.23          180,385.59           180,385.59
               Block 11                    18    LS                     5,466.23           98,392.14            98,392.14
               Block 12                    33    LS                     5,466.23          180,385.59           180,385.59
               Block 13                    33    LS                     5,466.23          180,385.59           180,385.59
               Block 14                    28    LS                     5,466.23          153,054.44           153,054.44
               Block 15                    28    LS                     5,466.23          153,054.44           153,054.44
               Block 16                    28    LS                     5,466.23          153,054.44           153,054.44
               Block 17                    28    LS                     5,466.23          153,054.44           153,054.44
                                         Subtotal                                                           $1,700,000.00
                                Subtotal                                               $1,699,997.53        $1,700,000.00
                 P&P (performance and payment) Bond                                           1.10%        $
                                Insurance                                                     1.75%        $
                           General conditions                                                 14.0%        $
                          Contractor overhead                                                  3.0%        $
                              Contractor fee                                                   2.3%        $
                                Subtotal                                                                    $1,700,000.00
                                   Tax                                                         6.045%      $
                                  Total change order 43                                                     $1,700,000.00
     Note: This change will add (180) days to this project
     SCOPE:
          1. This Change Order includes all additional bid quantities and additional repairs to the best of our abilities
          2. Each line item includes all taxes, insurance and fee
          3. At this time 75 units will not include finishes unless (contractor) has enough money left over to complete.
          4. All MPE (mechanical, plumbing, & electrical) will be completed in the remainder 311 units.
          5. This change order breakdown is only a base budget, at the time of the block completion and turnover (contractor)
              will revise the actual cost per block for the City of Phoenix
          6. (Contractor) will VE (value engineer) the Park Lee project to save money to complete any unknown repairs at this
              time.



47
  Table created from document provided by the City. No items or numbers have been modified. A City employee
approved the change order on August 12, 2011. We added items in parenthesis to either protect the identity of
parties involved or define the contractor’s acronyms.


                                                               72
